<html>
<title> - OPEN TO VISITORS? ASSESSING THE FEDERAL EFFORT TO MINIMIZE THE SEQUESTER'S IMPACT ON ACCESS TO OUR NATION'S CAPITAL AND NATIONAL TREASURES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    OPEN TO VISITORS? ASSESSING THE FEDERAL EFFORT TO MINIMIZE THE 
   SEQUESTER'S IMPACT ON ACCESS TO OUR NATION'S CAPITAL AND NATIONAL 
                               TREASURES
=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 16, 2013

                               __________

                           Serial No. 113-16

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
80-900                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 16, 2013...................................     1

                               WITNESSES

The Honorable David S. Ferriero, Archivist of The United States, 
  National Archives and Records Administration
    Oral Statement...............................................     7
    Written Statement............................................     9
The Honorable Jonathan B. Jarvis, Director, U.S. National Park 
  Service
    Oral Statement...............................................    17
    Written Statement............................................    19
Mr. G. Wayne Clough, Ph.D., Secretary, Smithsonian Institution
    Oral Statement...............................................    24
    Written Statement............................................    26

                                APPENDIX

Responses to follow-up Questions from Mr. Christopher P. Salotti, 
  Legislative Counsel, Office of Congressional and Legislative 
  Affairs, Department of the Interior............................    68
Responses to Questions sent to Mr. Jarvis, Director U.S. National 
  Park Service...................................................    69


    OPEN TO VISITORS? ASSESSING THE FEDERAL EFFORT TO MINIMIZE THE 
   SEQUESTER'S IMPACT ON ACCESS TO OUR NATION'S CAPITAL AND NATIONAL 
                               TREASURES

                              ----------                              


                        Tuesday, April 16, 2013,

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
2154, Rayburn House Office Building, the Hon. Darrell Issa 
[chairman of the committee], presiding.
    Present: Representatives Issa, Mica, Jordan, Chaffetz, 
Walberg, Lankford, Amash, DesJarlais, Farenthold, Hastings, 
Woodall, Collins, Meadows, Bentivolio, Cummings, Maloney, 
Norton, Tierney, Connolly, Speier, Davis and Horsford.
    Staff Present: Molly Boyd, Majority Parliamentarian; 
Lawrence J. Brady, Majority Staff Director; Daniel Bucheli, 
Majority Assistant Clerk; Caitlin Carroll, Majority Deputy 
Press Secretary; Steve Castor, Majority General Counsel; Drew 
Colliatie, Majority Professional Staff Member; John Cuaderes, 
Majority Deputy Staff Director; Adam P. Fromm, Majority 
Director of Member Services and Committee Operations; Linda 
Good, Majority Chief Clerk; Tyler Grimm, Majority Senior 
Professional Staff Member; Christopher Hixon, Majority Deputy 
Chief Counsel, Oversight; Michael R. Kiko, Majority Staff 
Assistant; Mitchell S. Kominsky, Majority Counsel; Mark D. 
Marin, Majority Director of Oversight; Kristin L. Nelson, 
Majority Counsel; James Robertson, Majority Senior Professional 
Staff Member; Laura L. Rush; Majority Deputy Chief Clerk; Scott 
Schmidt, Majority Deputy Director of Digital Strategy; Matthew 
Tallmer, Majority Investigator; Peter Warren, Majority 
Legislative Policy Director; Sang H. Yi, Majority Professional 
Staff Member; Jaron Bourke, Minority Director of 
Administration; Krista Boyd, Minority Deputy Director of 
Legislation/Counsel; Susanne Sachsman Grooms, Minority Chief 
Counsel; Jennifer Hoffman, Minority Press Secretary; Chris 
Knauer, Minority Senior Investigator; Adam Koshkin, Minority 
Research Assistant; Elisa LaNier, Minority Deputy Clerk; Brian 
Quinn, Minority Counsel; Rory Sheehan, Minority New Media Press 
Secretary.
    Chairman Issa. Before we begin, I think it fitting that we 
say a few words and express our condolences and our heartfelt 
sorrow for the events in Boston yesterday. Regardless of how it 
came to happen, it was a terrible tragedy, and our prayers go 
out to the victims and their families, and our thanks to the 
brave men and women who were first on the scene.
    America watched yet again an act of terror in horror 
yesterday at one of the icons of the American sports and 
recreational scene. We will not soon forget it, and I want to 
thank all of you for this moment of silence.
    [Pause.]
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to fundamentally do two 
things and do them well. First, because Americans have a right 
to know that the money Washington takes from them is well 
spent, and second, America deserves an efficient, effective 
government that works for them.
    The oversight side of our committee's responsibility is to 
protect these rights. Our solemn responsibility is to hold 
government accountable to taxpayers, because taxpayers have a 
right to know what they get from their government. Our job is 
to work tirelessly in partnership with citizen watchdogs to 
deliver the fact to the American people and bring genuine 
reform to the Federal bureaucracy.
    With oversight comes reform, if it is done right. Today, we 
are continuing our oversight of, in fact, the first real down 
payment on reducing the size of government in my 12 plus years 
on the Hill. Sequestration is by definition the worst possible 
way to save money. Across the board cuts make no sense.
    However, as we now have come to know, within sequestration, 
within departments, sequestration is not across the board. You 
do not buy 2.4 percent less toilet paper. You do not turn 
lights on 2.4 percent less bright. The truth is that agencies 
have had an obligation to make decisions. The decisions, as we 
will see today and as we have seen in previous hearings, vary 
widely.
    Our initial discovery is that independent agencies not told 
by Office of Management and Budget to ignore the impending 
sequestration cuts for the most part have taken steps. Those 
steps have consistently meant sequestration was less onerous 
than it would otherwise be. However, within agencies that were 
held to make their cuts later rather than sooner, it appears as 
though there is a wide variety of decision process. It appears 
to me, at least, that politics of sequestration need to be 
ended and ended soon.
    Americans deserve to know that we in fact can reduce the 
size of government. We can make decisions that impact Americans 
less or not at all. As we will hear today, some made decisions 
that in fact mean a win-win, not the least of which is an 
example of simply shipping answers or mailing more efficiently. 
It seems like a small thing. But it is a small thing that came 
from the necessity to cut a budget.
    Having come from the private sector, these kinds of boom 
and bust occur within the economic cycle regularly. Almost 
every company has a hot season and an off season, years that 
are better and years that, in fact, they need to be more 
efficient, times in which market share is being gained at all 
cost and times at which, within a given amount of market share, 
the stockholders would like you to make a little more profit.
    This does not occur ordinarily within government. Perhaps 
for the first time since the end of World War II, our 
government is facing a clamor from the stockholders, the 
American people, to make fundamental changes in how much we 
spend and to do it wisely. That is one of the reasons I think 
there was such a strong reaction to the White House canceling 
tours due to sequestration. There are many things that the 
White House could have canceled. There are many decisions they 
could have made. This one appears to be symbolic and political.
    Now, the fact is, something did have to be cut. Changes had 
to be made. And we will hear today, among others, from the Park 
Service, who has a great deal of control over Camp David and 
the White House, in addition to the monuments throughout 
Washington, and of course, our beloved parks around the 
Country, including my personal favorite, Yellowstone.
    Director Jarvis has been very public about his perceptions 
and the effects of sequestration. In public statements, he has 
fed fears that trash will not be picked up, that bathrooms 
won't be cleaned and that access roads to national parks won't 
be plowed. However, there is an inconsistency in what Director 
Jarvis has said publicly and what the Park Service has told us 
when they briefed the committee just last week. We hope to 
reconcile these differences, because in fact, they are 
profound.
    The Budget Office representative from the Park Service told 
both Democratic and Republican committee staff that 99 percent 
of visitors will not even notice adjustments. I would notice if 
there were no toilet paper. I would notice if the road were 
unplowed. This is a far departure from Director Jarvis' public 
statements prior to today. I am hoping we can clear up the 
ambiguity between his previous statements and the briefings we 
received on a bipartisan basis from his staff.
    But it goes far beyond this. The fundamental question is, 
can we do better with less? In the case of the Park Service, in 
constant dollars, they still have 5 percent more money today 
than they had when President Obama took office. Yes, there were 
plus-ups for the period of time of the stimulus. But the truth 
is, when looking at their major budget, representing 80 percent 
of their total expenditures, in other words, the non-capital 
budget, we find that in constant dollars they have more money 
today than they had in 2008. And in 2008, quite frankly, Mr. 
Jarvis, the roads were plowed, the trash was taken out, and 
most of the time, there was toilet paper.
    Early this year, the committee sent letters to the 
Department of Interior asking just the kinds of questions that 
Congress needs to know, how can Congress help change the most 
difficult sequester cuts facing agencies like the Park Service 
instead of an across the board. To date, including today, we 
have still not received an answer to that question, meaning the 
Park Service has not asked us for any authority that would help 
reduce sequestration. We can only presume that their position 
is, we need all the money we have had, including the 5 percent 
increase in our operating budget since 2008, or we will have to 
make these cuts.
    That does not make sense. There has to be a few percent 
better way to spend money.
    We will also hear today from witnesses representing the 
National Archives and the Smithsonian. I understand they are 
not planning to furlough employees and have been far less vocal 
discussing the possibilities of public inconvenience caused by 
the sequester than the Park Service. At the end of the day, 
this hearing is about how we can best work together to ensure 
the American people are not adversely impacted by outcomes that 
can be avoided by planning, coordination and managing.
    With that, I recognize the ranking member for his opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Before I address the topic of today's hearing, I want to 
take a moment to express our deepest sympathies to the victims 
of yesterday's bombings at the Boston Marathon. As I did on the 
Floor yesterday, yesterday was a holiday in Boston, Patriot's 
Day. What was supposed to be a celebration turned into a 
horrible tragedy for these victims and for their families. Our 
thoughts and prayers are with them.
    Also I want to commend our first responders. Many of them 
are Federal Government employees, State employees, local 
employees, emergency medical teams, health care providers and 
especially the law enforcement officials at the local, State 
and Federal levels who no doubt will be working on this case in 
the days and weeks to come. As we all glued our eyes to the 
television sets, we heard over and over again of the many 
instances where so many Americans who were there were told to 
stay away, but they made decisions to go and help their 
neighbors.
    That is what America is all about. In our toughest times, 
we have a way of showing the best of ourselves.
    So that leads me to today's hearing. To Mr. Ferriero, to 
Mr. Jarvis and Mr. Clough, I am going to start off with the 
presumption that I trust you. I trust that you are in jobs that 
are very difficult, I trust that you did not come to these 
positions to do harm to the public, but to help the public a 
life that is well-seasoned, to have experiences that will live 
with them until they die. You do not walk into these offices 
that you hold trying to stop the public from having the kind of 
opportunities that they deserve.
    And I refuse to believe that. I just do not. All my 
dealings with public employees, and I have said it on the Floor 
of the House and I will say it again, most people who come to 
government service, that I know of, come because they have a 
commitment to lifting up the public, whether they be at NIH, 
whether they be in the Park Service, whether they be on our 
staffs. People on both sides sometimes are sitting up until 
3:00 and 4:00 o'clock in the morning, sending emails, looking 
over records. Why? Because they want to do something good for 
the public.
    And I believe that that is what you all are about. And I am 
begging you, I would ask you, but I am begging you, to make 
that clear today. I do not know, we all make mistakes. We all 
have to sometimes change our plans. Sequestration I am sure has 
caused a lot to happen for all your folks. But from what I can 
see, you all started planning early, trying to make the right 
decisions. And in many instances, you are faced with situations 
where you cut, cut, cut.
    But again, and I will say this over and over again, cuts 
have consequences. Duh. They have consequences. I do not care 
where they are. Unless you just got a pile of money that is 
just floating down from the sky, there are going to be some 
consequences. It is either going to hit you today or hit you 
later. It is going to be seen here or it is going to be seen 
there. It may not be felt right now, but it will be felt at 
some point. But they do have consequences.
    So there are two things. One, I trust you. I trust that you 
are trying to make the right decisions. I am not starting with 
the presumption that you are trying to screw the public. I am 
not starting with that. Number two, I am assuming that you will 
show us what you did when you first heard about sequestration, 
the acts you took and tell us not just about what you are doing 
right now, but what you see up the road. This is a long road. 
The cuts are going to continue.
    So we want, all of us want our constituents to be served 
well, as I know that you do. So today the committee is holding 
a second hearing on how Federal agencies are implementing 
massive across the board cuts imposed by sequestration. I fully 
support this hearing, because Congress needs to understand how 
these indiscriminate cuts are negatively affecting our 
constituents.
    The committee has called three agencies to testify, the 
National Park Service, Smithsonian Institution and the National 
Archives and Records Administration. All three agencies have a 
significant presence here in Washington. And all three are 
suffering from the negative effects of sequestration.
    As I understand it, the National Park Service plans to 
furlough all 767 Park Police employees. It may continue its 
hiring freeze, which has left about 900 positions vacant. And 
it expects about three-fourths of its cuts to be taken from 
facility maintenance, visitor service, park protection and 
resource stewardship.
    Somebody has to pay. Something has to give. It may delay 
road openings, deploy fewer park patrols, obviously if you have 
to furlough people, there are going to be some folks who are 
not present. And close entire facilities, such as campgrounds 
and visitor centers.
    The Smithsonian may have to take similar measures, 
including reducing guard forces at its facilities. It may 
reduce or close certain exhibits, galleries or museum, and it 
may postpone maintenance and defer capital projects. It also 
may delay the opening of the new National Museum of African 
American History and Culture by cutting funds to hire critical 
staff.
    The National Archives also may have to eliminate exhibits 
and public programs, reduce hours for researchers and cut 
contracts to preserve paper and electronic records. It also may 
be forced to reduce public access to records, including records 
sought by veterans and their families to verify eligibility for 
Federal benefits to which they are entitled.
    At our last hearing, we discussed how Speaker Boehner and 
the House Republicans insisted on these massive cuts in 
exchange for averting default on the national debt. They 
considered this a political victory. Today, although Republican 
leaders take credit for these cuts, they do not take 
responsibility for their negative effects.
    Some critics argue that the Federal agencies could avoid 
these negative consequences simply by transferring funds from 
different accounts or by selectively cutting only certain 
programs. They even suggest that agencies might be making cuts 
unnecessarily to inflate their negative impact for political 
reasons.
    As we learned in our previous hearing, however, Congress 
did not give agencies wide discretion to implement 
sequestration. Congress imposed these across the board cuts at 
every programmatic level and Congress has passed multiple 
restrictions to prevent agencies from transferring or pre-
programming funds.
    Critics seem unable and unwilling to acknowledge this one 
simple fact: these massive cuts do have consequences.
    Finally, Mr. Chairman, serious negative and harmful 
consequences for the American people, anyone who blames the 
President for closures and cutbacks in Washington, D.C., 
whether at the White House or at the three agencies here today, 
is either unfair or misinformed.
    I would like to put up some photos, if I may. These are 
pictures of office buildings right here in the Capitol. 
Republican leaders drastically cut funds for the Capitol Police 
this year. So office buildings throughout Congress have been 
forced to shut their doors. Lines for the general public now 
spiral into the street. I am sure almost every Congressional 
staffer in this room has been affected by this as well.
    Is this somehow the President's fault? Of course it is not. 
Cuts have consequences. The sooner we recognize that, the 
sooner we can begin working with Federal agencies to protect 
them and the American public from these mindless, across the 
board cuts.
    With that, Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman. I would note that 
that picture could have been taken five years ago. It is not 
uncommon to have those kinds of lines at that point.
    Mr. Cummings. Mr. Chairman, I appreciate what you just 
said. The picture was taken this morning.
    Chairman Issa. I have little doubt of that.
    Members may have seven days to submit opening statements or 
enter extraneous material into the record. We will now welcome 
our guests. The Honorable David Ferriero is the Archivist of 
the National Archives and Records Administration, and a 
returning guest. The Honorable Jonathan Jarvis is the Director 
of the Park Service, and again, returning. And Dr. Wayne Clough 
is the Secretary of the Smithsonian Institution. Thank you all 
for your service.
    Pursuant to the committee rules, all witnesses will rise 
and be sworn. Please raise your right hands.
    Do you solemnly swear or affirm the testimony you will give 
will be the truth, the whole truth and nothing but the truth?
    [Witnesses respond in the affirmative.]
    Chairman Issa. Let the record indicate all witnesses 
answered in the affirmative.
    As is the custom here on the Hill, your entire opening 
statements will be placed into the record. I would ask that you 
limit your opening statement, which some of you are bound to 
read, whether we ask you not to or not, or a summary thereof, 
but please try to stay as close to the lights in front of you. 
As now my retired predecessor used to say, it is easy to 
remember, it is just like a street light. Yellow means go real 
fast so yo don't end up on red.
    And with that, Mr. Ferriero.

                       WITNESS STATEMENTS

                 STATEMENT OF DAVID S. FERRIERO

    Mr. Ferriero. Let me begin by thanking both of your for 
acknowledging yesterday's events. Having crossed that finish 
line seven times myself and had friends and relatives at the 
finish line, this was a very personal attack for me.
    Chairman Issa. I notice you are not giving us your times, 
though.
    Mr. Ferriero. Good morning, Chairman Issa, Ranking Member 
Cummings and distinguished members of the committee. Thanks for 
inviting me to testify this morning on the impact of 
sequestration on the National Archives and Records 
Administration. Our mission is to store, preserve and provide 
public access to the permanently valuable records of the 
Federal Government. We provide agencies with records management 
services and temporary records storage.
    In total, NARA holds 33 million cubic feet of permanent and 
temporary records in more than 40 facilities across the United 
States, including the presidential libraries of 13 former 
presidents. NARA performs its mission through its workforce of 
approximately 3,300 employees and an annual appropriated budget 
of $391 million.
    We serve the public by providing access to records that 
help Americans of all ages to better understand their history 
and their democracy, document the rights of citizens and allow 
Americans to hold their government accountable. Last year 
alone, NARA responded to over 1 million requests from American 
veterans and their families seeking documentation of military 
service, which is necessary to qualify for health benefits, 
military burials and the replacement of medals.
    We support government accountability by ensuring public 
access to records that document and explain government 
decisions. We publish the daily Federal Register, operate the 
National Declassification Center, and improve the 
administration of FOIA through the Office of Government 
Information Services. And although we care for billions of 
pages, we are perhaps best known for displaying the Declaration 
of Independence, the Constitution and the Bill of Rights. Over 
3 million people visit NARA exhibits nationwide every year.
    Sequestration has reduced NARA's budget to $371 million, or 
$19.7 million below the amounts provided in fiscal year 2013. 
All but $1 million of this reduction must come out of NARAs 
operating expense appropriations. Because sequestration 
occurred with only seven months remaining in fiscal year 2013, 
our sequestration amount is equivalent to a 7.7 percent 
reduction in available funds for the remainder of the fiscal 
year. Our primary objective for implementing sequestration cuts 
are to preserve the agency mission and to minimize disruptions 
in agency services to the public. We identified specific cuts 
to contracts, grants and other spending consistent with these 
principles.
    Our plan relies in part on budgetary savings from an 
agency-wide hiring freeze. NARAs workforce has shrunk by 299 
employees, or 8.5 percent of the workforce, since the hiring 
freeze was implemented in November of 2011. Sequestration has 
required that we reduce public hours at two of our largest 
facilities, the buildings in Washington, D.C. and College Park, 
Maryland. Research rooms in both facilities are normally open 
six days a week, from 9:00 to 5:00, with extended hours to 9:00 
p.m. on Wednesdays, Thursdays and Fridays. Due to 
sequestration, NARA will no longer offer extended hours, but 
the research rooms will remain open from 9:00 to 5:00, Monday 
through Saturday, year around.
    The museum in Washington, D.C. has been impacted by 
sequestration. In the past, NARA has extended public hours for 
the museum until 7:00 p.m. from March 15th through Labor Day. 
Due to sequestration, NARA will no longer offer these extended 
hours, but the museum will remain open from 10:00 to 5:30, 
seven days a week, year around.
    We decided to reduce public hours after reviewing 
attendance data that showed extended hours were under-utilized 
by the public and that they extended beyond the visitor hours 
of comparable museums and institutions. NARAs decision to 
reduce public hours in two facilities is only a small part of a 
much larger and detrimental impact of sequestration on NARAs 
mission and operations.
    Sequestration will require NARA to defer preservation 
actions necessary to protect low and moderate risk records from 
deterioration and will delay efforts to conserve film, audio 
and other special media. We will also reduce spending on the 
Electronic Records Archive and will not be able to address 
concerns raised by ERA users and other Federal agencies and by 
NARAs Inspector General.
    We will reduce spending on maintenance of 17 buildings that 
NARA owns and will defer all building repairs except where 
necessary to protect the safety of building occupants, visitors 
and the records we hold in trust.
    NARA has prepared a responsible plan that implements fiscal 
2013 sequestration cuts in a way that preserves the agency 
mission and minimizes the impact on the public to the greatest 
possible extent. Much as NARAs sequestration cuts have been 
taken from administrative and support functions, however, 
sequestration imposes significant budget reductions on NARA 
that cannot be fully implemented without some noticeable impact 
on service to the public.
    Mr. Chairman, that concludes my formal statement. I look 
forward to continuing the discussion with you and members of 
the committee.
    [Prepared statement of Mr. Ferriero follows:]


    [GRAPHIC] [TIFF OMITTED] 80900.001
    
    [GRAPHIC] [TIFF OMITTED] 80900.002
    
    [GRAPHIC] [TIFF OMITTED] 80900.003
    
    [GRAPHIC] [TIFF OMITTED] 80900.004
    
    [GRAPHIC] [TIFF OMITTED] 80900.005
    
    [GRAPHIC] [TIFF OMITTED] 80900.006
    
    Chairman Issa. Thank you, I do too.
    Before we begin questions of Director Jarvis, I want to 
note, this committee sent you on March 27th a request for 
documents. The committee is used to receiving documents in a 
timely fashion. Our request for documents from the National 
Park Service on how you were managing sequestration, the date 
to respond was April 10th, 2013, and no written official 
response has been received.
    When it became clear the Park Service was not going to meet 
its deadline, committee staff posed just five simple questions 
to your legislative affairs representative. We will place them 
on the board. They really are pretty simple to answer. The 
questions were completely ignored for two days, until an in-
person staff briefing on April 12th. At that briefing, the 
congressional affairs representative attempted to provide vague 
answers to the questions, and when pressed by staff, promised 
email answers to these questions. Four days later, we still 
have not received answers to these questions.
    Director Jarvis, although I will permit you to testify, 
your lack of transparency and frankly, your obstruction as to 
the internal activities of the Park Service relative to 
sequestration, is troubling. We put deadlines that were 
reasonable and attainable, and for reasons we cannot 
understand, you have deliberately thwarted our oversight.
    Last Congress, getting answers from the DOI after 
repeatedly requesting them was like pulling teeth. This is an 
unacceptable pattern of behavior. Director Jarvis, we already 
have your written statement in the record. As we on the dais 
have had an opportunity to read it, instead, we ask you to 
summarize your testimony and to use all or part of your five 
minutes to answer these five simple questions.
    When did the Department and National Park Service begin 
collecting information responsive to the Chairman's letter? How 
many staff does the Department of Interior or National Park 
Service are involved in search for responsive materials? Who 
are the individuals at the Department and/or the National Park 
Service conducting the search?
    What search items are being used to find responsive 
materials? How many responsive documents have you identified so 
far?
    I don't believe these are unreasonable questions, 
considering you have not been able to deliver us any responsive 
documents. I ask you to at least answer the questions, and you 
have staff behind you that we know know it, about why you are 
here at a hearing testifying on clear inconsistencies between 
your own staff's briefing and your public statements. This is 
not a surprise to you.
    I might note as you begin your testimony that a little over 
400 parks received this one-page questionnaire. It simply asked 
for simple numbers, and then a comment line. It was a pretty 
good idea, a one-page question to 400 plus of your 
superintendents to get a basic idea where they thought there 
were savings and perhaps collate them.
    I don't have any question that they are all sitting on one 
desk in your offices. I also have a whistleblower who tells me 
that in some of these documents they said, we have no problem, 
we can do it, we will not have to be absent toilet paper. We 
had a right to see these documents before you came. We had a 
right to know, the American people had a right to know, that 
over 400 different parks and monuments had differing problems, 
differing opinions on what they could do to save money. We were 
denied that, and we know they are sitting on a desk, they are 
assembled and they simply were not delivered to this committee.
    It is your right to collect documents and look at them. It 
is not your right to provide delay. And when you look at 400 
pieces of paper, the time necessary would be less for your 
staff than it took you to get over here this morning.
    With that, you are recognized for your opening statement.
    Mr. Cummings. Mr. Chairman, may I be heard, please?
    Chairman Issa. Of course.
    Mr. Cummings. Thank you.
    Let me say that, Mr. Jarvis, I certainly agree with the 
Chairman with regard to any kind of effort and failure to 
provide us with the information that we request. I have said 
many times that I believe that this committee should be 
operated almost like a Federal court, with high standards and 
fairness.
    I am concerned, too, that we have not gotten this 
information. I agree with the chairman that the five questions 
that were just listed, you need to answer. I would also, I am 
concerned that requests were made for information which, I 
don't know what kind of difficulty you all ran into, but it is 
my understanding from staff that your folks said that they were 
gathering the information, or had gotten the information 
together, but that general counsel had to go through it. I 
think you need to make it clear, we have to move forward, Mr. 
Jarvis.
    I think it is so important that we maintain the trust that 
I talked about a little bit earlier. Whenever there is a lack 
of trust, relationships fail. I don't care what kind of a 
relationship it is. I note from Chairman Issa's letter of March 
27th, he noted these other things that he was concerned about, 
he wanted a list of names and titles of individuals at NPS who 
submitted, solicited, collected or evaluated proposals related 
to the NPS's budget modification resulting from sequestration. 
He wanted all documents that refer to or instruct the National 
Park Service on the process which proposals for budget 
modifications are to be handled at NPS due to sequestration. He 
wanted all copies of each budget modification and how they were 
solicited and evaluated, and he wanted all documents and 
communications, including handwritten notes referring to it, 
relating to the National Park Service plans to budget 
adjustments under sequestration.
    I do not think that those requests are unreasonable. I know 
the chairman has said that he wants you to limit your response 
to the five minutes, and Mr. Chairman, I would ask that if it 
need be, given two extra minutes or three extra minutes to 
address this. This is very serious, Mr. Jarvis. As I said from 
the very beginning, I trust you guys. I trust that you are 
doing the right thing for the public.
    But you have to make sure that there is the greatest degree 
of transparency. If counsel, your lawyers are going through the 
papers, sometimes lawyers have to work late, they have to bend 
over backwards to get it done. But we have to move forward.
    So Mr. Chairman, again I would ask that if he needs a few 
minutes to answer your concerns, I would appreciate it. Thank 
you.
    Chairman Issa. With the indulgence of the other witnesses, 
and without objection, so ordered. Please continue.

                STATEMENT OF JONATHAN A. JARVIS

    Mr. Jarvis. Mr. Chairman, thank you for this opportunity to 
talk about sequestration within the National Park Service.
    I will summarize my opening remarks so that we can get to 
the questions. The sequestration really required the Park 
Service to reduce its spending by $153 million, of which $113 
million was taken directly from the National Park Service 
operational account. The remaining $40 million kind of came 
from projects and grants.
    I think the key point here is that the National Park 
Service's budget is park by park, so that the 5 percent 
sequestration was applied at each individual park and program.
    Over the last three years, we have been on a slight 
decline. So we began our planning exercise for this 
sequestration actually in the middle of 2012. We instructed 
every park, every program and every organization to really 
develop a financial model to handle what we thought would be a 
very tough coming fiscal year in 2013. We asked them to leave 
vacant positions unfilled, plan for fewer seasonal hires, and 
reduce short-term spending. We applied that strategy across the 
entire organization, preparing for fiscal year 2013.
    When it appeared that sequestration was going to occur, I 
implemented a hiring freeze on all permanent positions that 
resulted in 1,300 positions that remain vacant. We are holding 
900 of those to remain vacant through the rest of the fiscal 
year. That resulted in about $43 million in savings in 2013.
    I instructed them next to eliminate spending on travel, 
overtime, supplies and materials and contracts. We have had 
strict travel controls in place since 2003. That resulted in an 
additional savings. I can give you those numbers.
    Those that were unable to meet their sequestration targets 
after that were then asked to reduce the numbers of seasonals, 
to extend furloughs, to subject to furloughs. And lastly, that 
if they can't meet their sequestration targets by then, they 
needed to look at furloughing permanent employees, all of them 
for the same amount of time.
    As a result of all of these I think very conservative 
efforts, the only part of our organization that is going to 
result in actual furloughs of permanent employees is the U.S. 
Park Police, because they are predominantly a salary, non-
grant, non-construction side of our house.
    These reductions definitely are having impact. Reduced 
hours of operations, later and delayed road openings, fewer 
programs and fewer services, every park and activity will have 
some kind of impact. We think those impacts will accumulate 
over time.
    So actually, I think we have approached this very 
conservatively. We do not want to impact the public, so our 
focus has been principally on the shoulder seasons of our 
national parks. Keep in mind the sequestration came mid-year 
and we are going into our peak season. So what we had to do is 
to reduce the hours and operations around the edges of the 
prime season, so that the principal visitors would not be 
impacted during our prime summer season as well.
    We gave each individual park the opportunity to make 
choices about how they could implement it, and then we reviewed 
all of those products that you saw, Mr. Chairman, back at the 
Washington level to ensure there was consistency in how it was 
applied across the system and to make sure that the numbers 
that they were providing actually made sense for the Service.
    Let me just say one thing, in light of the very, very 
tragic attack in Boston yesterday. As you well know, the 
National Park Service through its Park Police and our other law 
enforcement organizations participate in the Joint Terrorism 
Task Force. I can assure you that these sequestration impacts 
are not compromising our responsibilities for icon security 
here in Washington or in our other sites around the Country, 
the Statue of Liberty or the Golden Gate Bridge or other sites, 
as well.
    So getting to your questions. The first one, when did the 
Department and the NPS begin collecting information. On April 
8th, the National Park Service was forwarded your letter and we 
began immediately to collect that information in response to 
your request.
    In terms of how many staff in the Department of Interior 
and the National Park Service, we have five employees in the 
Washington office that are working directly on the 
responsiveness. We tasked at our regional level, we have seven 
regions and there are staff at each of those seven regions 
collecting specifically the information. I am aware there are 
nine individuals working at the Department of the Interior in 
responding to your request.
    Essentially within my staff, which I can speak to 
specifically, is my chief of staff, who has the responsibility 
of responding to all these types of Congressional requests to 
collect this information, and have it reviewed.
    In terms of search terms, we draw directly from your 
request. We use, I can't tell you off the top of my head what 
those terms are, but specifically we want to be comprehensive. 
So using just sequestration isn't really going to get it. We 
really look at all of the planning and documents. That results, 
frankly, in thousands of pages.
    I want to be clear that the general counsel and solicitors 
do not work for the National Park Service. They work for the 
Department of the Interior. They require their review of these 
document before they are sent. I have no control over that 
whatsoever. And that is the standard that the Department of 
Interior is applying, that those have to be reviewed by them 
before they are submitted.
    [Prepared statement of Mr. Jarvis follows:]
    [GRAPHIC] [TIFF OMITTED] 80900.007
    
    [GRAPHIC] [TIFF OMITTED] 80900.008
    
    [GRAPHIC] [TIFF OMITTED] 80900.009
    
    [GRAPHIC] [TIFF OMITTED] 80900.010
    
    [GRAPHIC] [TIFF OMITTED] 80900.011
    
    Chairman Issa. Thank you.
    Dr. Clough?

                  STATEMENT OF G. WAYNE CLOUGH

    Mr. Clough. Thank you, Mr. Chairman and committee, for this 
opportunity to testify. The Smithsonian appreciates the support 
of the Administration, Congress and the American people.
    Spring brings the cherry blossoms, tourists and school 
children to our Nation's capital. I love to see the buses pull 
up in front of our museums and galleries and watch all those 
visitors pull out with smiles on their faces, knowing they are 
going in for a great learning experience at the Smithsonian.
    Our mission is to make the resources of the Smithsonian 
available to all Americans and help our Country address 
critical challenges through programs in education, the 
humanities and sciences. With the help of our 17-member board 
of regents, which includes six members of Congress, we have 
embraced a culture of change, to create a more responsive and 
relevant Smithsonian.
    Last year, our 19 museums and galleries and the National 
Zoo opened nearly 100 new exhibitions and hosted more than 30 
million visitors, the highest number in the last decade and up 
5 million from 2007. We are open 364 days a year and admission 
is free.
    We are expanding our reach through digital access. With 
more than 100 million unique visitors to our websites, with 
more than 2,000 online lesson plans and courses that meet State 
standards, we are now delivering Smithsonian content to schools 
in all 50 States. About 60 percent of our art collections are 
now available online.
    The foundation for all of our work is based on impeccable 
research, scholarship and art, science, history, culture and 
education. Every day, more than 500 Smithsonian scientists are 
working on some of the most perplexing problems we face: 
protecting our imperiled natural resources, keeping our ports 
and waterways safe from invasive species, halting the spread of 
pandemic diseases, saving endangered species, keeping 
commercial and military aircraft safe from bird strikes, and 
helping guide Curiosity, the Mars Rover.
    We are stewards of America's collection, some of which date 
back even before the founding of the Smithsonian. They include 
137 million objects and treasures, from a tiny fossil, a giant 
squid, the Star Spangled Banner, the desk upon which Jefferson 
wrote the Declaration of Independence, Harriett Tubman's shawl, 
the Wright Flyer and the Space Shuttle Discovery.
    I am honored to lead a dedicated staff of 6,400 employees 
plus 6,200 volunteers who are all passionate about their work. 
That is why for the third year in a row, the Smithsonian was 
named as one of the top four best places to work in the Federal 
Government. Guided by our 2010 strategic plan, we measure 
everything we do to ensure we are continuously improving. There 
are great opportunities ahead, but there is no question 
sequestration will have an impact on our ability to serve the 
American people. We did our best to anticipate sequestration, 
and so as the fiscal year began, the Smithsonian acted, 
recognizing that the reduction of our Federal budget of 5 
percent would amount to nearly $42 million.
    Over time, we restricted staff travel, cut funds for 
collections, care and research equipment, and our Latino pool 
and our collections information system and facilities 
maintenance were reduced investments for research, education 
and outreach and imposed a hiring freeze, and did not backfill 
critical curatorial and staff positions. We did this to ensure 
we had funding to allow us to bridge the early impact of 
sequestration.
    Although holding these funds back has affected our basic 
operations, it allowed us to continue to serve the American 
people in the short term, keeping our museums open and 
continuing to deliver all the educational materials we had 
promised. However, we now see the full impact of sequestration, 
and we will face hard decisions for 2014. We have little budget 
flexibility remaining.
    Sequestration will affect almost everything we do. We 
expect to have to close some of the galleries in our museums 
through the end of this fiscal year. We will reduce the ability 
to offer new exhibitions and programs for next year. It 
certainly will impact our research capacity. It will slow the 
process of digitization, which we are very excited about for 
the future of the Smithsonian. It will defer needed maintenance 
and hamper educational outreach.
    Previous actions that we undertook this year will become 
permanent with a prolonged sequester and will translate into 
permanent staff reduction. Sequestration will also affect our 
budget in areas that we believe are already underfunded, such 
as facilities maintenance and collections care. Sequestration 
also could affect the National Museum of African American 
History and Culture. Interrupting its funding for construction 
could increase its cost in later phases and might delay 
acquiring the right numbers of personnel to open the museum.
    For 167 years, the Smithsonian has served our Nation as a 
source of inspiration and discovery. Our goal is to create a 
Smithsonian for the 21st century that gives all Americans a 
chance to benefit from this remarkable institution. I grew up 
in a rural town of 5,000 people in South Georgia, Douglas, 
Georgia. I paid my way through college working as a surveyor 
for the Louisville National Railroad Company. I did not 
discover the Smithsonian until I was an adult.
    When I came here nearly five years ago, I challenged our 
people to reach out to the underserved people of America, and 
we have been doing just that. The sequester is going to limit 
our progress and make it more difficult to achieve that 
particular goal.
    Again, I thank you for your support. I will be happy to 
answer any questions.
    [Prepared statement of Mr. Clough follows:]
    [GRAPHIC] [TIFF OMITTED] 80900.012
    
    [GRAPHIC] [TIFF OMITTED] 80900.013
    
    [GRAPHIC] [TIFF OMITTED] 80900.014
    
    [GRAPHIC] [TIFF OMITTED] 80900.015
    
    [GRAPHIC] [TIFF OMITTED] 80900.016
    
    [GRAPHIC] [TIFF OMITTED] 80900.017
    
    Chairman Issa. Thank you. I will now recognize myself for 
first round.
    First of all, Mr. Ferriero, Dr. Clough, I appreciate the 
fact that you were able to reach sequestration and I appreciate 
the detail you have given us in writing and now some orally on 
the cuts.
    I would like to share with you something, just so you know 
that we do feel your pain on this side of the dais. In 2011, 
Congress, the House specifically, cut our budgets in real 
dollars, this is not Compton dollars, we cut 5 percent over the 
previous year. In 2012, the Speaker reiterated and we cut 6.4 
percent. This year, the budget decreased on my staff, on the 
ranking member's staff, 10 percent.
    We are 21.4 percent less than we were in 2010, and those 
are written dollars. Obviously due to inflation, it is a 
greater amount than that. And the ranking member is right: we 
have had to make some decisions, and I don't make light of it. 
We have also, I hope, begun the process of asking, can we be 
smarter. Here in the House, for 11 years I asked, why is it we 
are using a phone system that isn't voice over IP? Why do we in 
fact buy countless lines that normally go down when somebody 
decides to attack our phones by endlessly calling because they 
don't like some piece of legislation?
    And the answer was, well, we will get to it. Well, now that 
they figured it could pay for itself in less than three years, 
we are getting to it quicker. So necessity is the mother of 
invention.
    Doctor, in your case, I believe, if I understood your 
statement, many of the ways that you achieved this year's 
sequestration was in fact unsustainable going forward, that 
without material changes in revenue, perhaps philanthropic 
revenue, without potentially taking a 100 percent free museum 
and charging an entrance, or without cutting services, 
currently you forecast that you will have to make actual cuts 
in service. Is that a summation?
    Mr. Clough. Our goal, obviously, is to try to keep our 
museums open. Because the American people come here, some plan 
for a lifetime to make their visits here. We recognize the 
importance of our services there.
    We are going through a process now that will allow us to 
understand and appreciate exactly how we can accommodate these 
cuts in the long run.
    Chairman Issa. And I would reiterate our offer, that if we 
receive an adjustment request from any fund from any part of 
government, I have agreed to author it and send it up for 
consideration to the House immediately. That would include in 
order to maintain the schedule on the African American portion, 
your new portion that is under construction. You figure out how 
we should reallocate funds and I personally will author it. I 
am sure the ranking member will be my co-sponsor, so at least 
you get immediate consideration.
    Mr. Ferriero, I think yours is a great example where there 
are services that are being prioritized lower. But in fact, you 
began this process quite a bit earlier. Was that really what 
gave you the advantage, perhaps, over the Park Service, is when 
you began making, for example, hiring freezes?
    Mr. Ferriero. I am sure that that put us in a good 
position. It forced the agency to analyze every opening and 
make a decision, is there a smarter way to do the work, is the 
work a core mission. And it created a kind of urgency within 
the agency around reduced funds.
    Chairman Issa. Mr. Jarvis, you said earlier that you began 
process of polling, figuring out where money could be saved. 
But that was actually not for sequestration, that was just for 
the 2013 budget. Isn't it true that it wasn't until January 
25th, many, many days after sequestration was clearly a law of 
the land, that you then sent out the request for information 
from your 400? This is actually, again, I know it is not you, 
it says the United States Department of Interior, but it does 
say National Park Service underneath. And it was sent with your 
signature, and that is the 25th of January, to regional 
directors, associate and assistant directors of the Park 
Service.
    I understand that is the one that generated this one-page 
request. Isn't that true? Isn't that when you polled people to 
say, to 400 plus locations, how can we save money?
    Mr. Jarvis. Mr. Chairman, our first memo to the field 
regarding anticipation of a very, very conservative fiscal year 
actually went out in June of 2012.
    Chairman Issa. No, I understand. But sequestration appears 
to have, and I am going to quote from your own letter, ``This 
memorandum and the attached materials outline the actions you 
are directed to take to develop a sequestration plan in 
response to the Administration and Congress.'' Now, I don't 
know any other way to say it, but you haven't given us any 
evidence that you did something before that. And my time is 
very limited, I don't want to run any further over. And there 
will be a second round of questioning.
    But my only question to you at this moment is, why is it, 
when on January 25th you sent it out, in March we request these 
documents specifically, that 400 or so of these documents, one 
page long, shouldn't be given to us as turned in? In other 
words, make a xerox copy for yourself. But since we have a 
right to see it as it was turned in, what lawyer has any right 
not to turn those 400 plus documents over to us? And I want 
that answered, because we are used to getting what we call 
rolling discovery on this committee. We get the easy stuff 
first, we get the slightly harder to collate second and we get 
the stuff the lawyers have to go over endlessly, usually we 
call that the embarrassing stuff, last.
    In this case, if these are embarrassing, they certainly are 
not hard to gather, you have them all in a single stack on 
somebody's desk. And they are pretty straightforward, they are 
a one-pager directly from people you trust.
    And in your opening statement, you said you wanted to 
essentially make sure they were all the same. These documents, 
from what we can tell, are the best source of finding out where 
one out of 400 people had a great idea, and you should send out 
to the other 399 or 400 and some, hey, what about so and so 
that this park service came up with in their memo answer. We 
can't know what that says until you deliver those documents. 
Quite frankly, if you made a look over your shoulder to one of 
your assistants, we could have it before the end of this 
hearing.
    With that, I yield to the ranking member.
    Mr. Mica. Mr. Chairman, parliamentary inquiry.
    Chairman Issa. The gentleman will state his parliamentary 
inquiry.
    Mr. Mica. At what point in the proceedings would it be 
appropriate, if I was to offer a motion to subpoena those 400 
documents for the committee?
    Chairman Issa. It is now being heard, but I would consider 
at this hearing that that motion would probably not come to be 
in order, or if so, it would be suspended until the end.
    Mr. Mica. I would be prepared when it is appropriate and at 
what hearing to offer that motion. I yield back
    Chairman Issa. I thank the gentleman. We now recognize the 
ranking member.
    Mr. Cummings. Not a part of my time, just a further 
parliamentary inquiry.
    Chairman Issa. Of course.
    Mr. Cummings. Mr. Chairman, as you well know, we do 
everything in our power to try to avoid subpoenas.
    Chairman Issa. Including here.
    Mr. Cummings. Yes. One of my questions was going to be, and 
I heard Mr. Jarvis saying that counsel for the Interior 
controls things. I am trying to figure out how we can expedite 
that and get the records. I know you don't have control. And 
maybe that is a discussion that would come up with regard to 
the motion. But it just seems like there is something, there is 
somebody we should be looking at in the counsel to get things 
done. As I understand it, the records are ready to roll, right?
    Chairman Issa. And I agree with the gentleman that we are 
shooting the messenger some. But I recognize that within the 
hierarchy of the Administration, it is not exclusively within 
your jurisdiction. So I think the gentleman is right.
    Mr. Hastings. Would the gentleman yield on this? Would the 
gentleman yield for one moment?
    Mr. Cummings. I didn't know I had time.
    Chairman Issa. He has all the time in the world.
    Mr. Hastings. I thought that you had recognized the ranking 
member.
    Chairman Issa. The gentleman is recognized for one minute.
    Mr. Hastings. I just wanted to say that I came in a little 
bit late, when you were going over this data, or lack of 
getting this data. I just want to say, as the chairman of the 
Natural Resources Committee, this is a pattern that I see very, 
very prevalent in Department of Interior, just asking for 
documents. It is very frustrating to me, and for the ranking 
member, how you get this is, it should be information that 
should be shared with us. I have a deep sense of frustration 
when I talk to my oversight people, and I see that shared with 
you. Hopefully we can shake that loose here.
    Mr. Cummings. It is my hope, and I said this earlier, that 
we will shake that loose. I said to Mr. Jarvis that I agree 
with the Chairman, there are documents that we must have. And 
that they must take reasonable actions to make sure we get 
those documents. Because you are usually not around to hear 
this statement that I make, we have a limited amount of time 
here. We have to be effective and efficient. If they are 
blocking us from being effective and efficient, then we have to 
do what we have to do to make sure we can be that.
    Mr. Hastings. And I noted Mr. Jarvis' response, he had the 
information but apparently there was somebody higher, I 
understand there has to be some review, don't misunderstand. 
But boy, that seems to be very prevalent with the Department of 
Interior from my point of view.
    I thank the gentleman for the recognition.
    Chairman Issa. The gentleman is recognized for his round of 
questions.
    Mr. Cummings. Thank you very much. To all of you all, I 
want to thank you for your testimony. To Mr. Clough, you 
provided me with a moment of, an emotional moment, actually, 
because you were talking about trying to make sure, you realize 
that people came to Washington and maybe they had planned the 
trip for so long.
    Sometimes, Mr. Clough, I sit out in front of the 
Smithsonian, or in front of a park in this area, and I watch 
the families. The reason why I say it is emotional for me, is 
although I lived in Baltimore, the first time I went to a 
Smithsonian Institution, I was 21 years old. So I know what you 
are talking about when you say people plan these trips, and the 
mothers and fathers are excited, they have talked about it, 
they have read books about it, the kids are pumped up.
    And that leads me to my question, and what I started with 
earlier. I assume that you all really want the public to enjoy 
those experiences. I tell people, people in my district, 
although they live 40 miles away, they are in the same position 
I am. Some of them are 18, 19, 20 years old, and have never 
even been to D.C. Never been to the District, and they are 40 
miles away. They don't even know about some of the parks and 
the things you offer. They don't even know about them.
    But when they come with their families and their eyes are 
opened to what this Nation is all about, it gives them a vision 
of what they can be. So I am assuming that you all feel the 
same way I feel, that you want these families, just like you 
would want for your own family, to have the maximum exposure to 
whatever you are offering, Park Service, Smithsonian, that they 
can have this. Is that a fair question? Is that true?
    Briefly, Mr. Clough.
    Mr. Clough. Absolutely. And the American people in essence 
have already paid for the Smithsonian. They have paid for the 
buildings in large part, and they paid for the collections. So 
we are thrilled when they make that all-important visit to come 
to our museums. And we want to maximize it.
    One way we are trying to connect with people is digitally. 
We can reach everybody digitally. And a lot of young people who 
may not think initially about museums use these digital 
devices. So we are developing a lot of mobile apps to get 
people encouraged to think about the Smithsonian. We encourage 
them to communicate with us. In the past, they couldn't do 
that. But with these mobile devices, they can communicate with 
us. And when they come, they can tell us whether they liked or 
didn't like the visit or we need to work on it.
    So we are really working hard to try to communicate and 
after people leave to provide them with supplemental materials 
about what they saw. And to particularly provide it to 
teachers, so teachers can wrap that into the bigger experience.
    But clearly, every person who visits the Smithsonian walks 
way with this one thing in mind, I have seen something very 
special that I may only see once in my lifetime, and that is 
maybe the most important thing we have done.
    Mr. Cummings. And I assume you two gentlemen feel the same 
way? Is that accurate? Be brief, because I have another 
question. Mr. Jarvis?
    Mr. Jarvis. Certainly that is our mission, to provide these 
extraordinary locations, over 400 of them, to not only the 
American public, but to the entire world. That is what we do 
and we do it well.
    Mr. Ferriero. And we collect and protect the records of the 
Country, so that the American public can hold their government 
accountable for their actions. And we also believe in civic 
literacy. Civics is not being taught in schools any more. We 
have a huge responsibility to educate that K-12 community about 
how their government works.
    Mr. Cummings. To me, the question I am about to ask you is 
the question of the day. So listen carefully. I believe you, I 
believe that your mission is to bring light to life for the 
American people. I believe that you think about it 24-7, you 
are trying to figure it out. So when sequestration came about, 
first of all, did you get some commands from up high saying, 
close this, don't close that, don't close this? And how were 
these decisions made?
    This is the question. How were the decisions made in 
relationship to what the appropriators told you to do under 
sequestration? What limitations did you have? That is what we 
need to know. Because I am sitting up here and I am thinking, 
maybe we ought to be apologizing to you all. We are the ones 
who are responsible for sequestration, we are, because of what 
we didn't do.
    So would you answer my question, one by one?
    Mr. Clough. I think that particular challenge with 
sequestration was, even though we had a understanding this 
would happen, was the short period of time in which we have to 
implement it. So there is this immediate response that we have 
tried to develop that will allow us to minimize the impact on 
the public. As we are moving on our next stage, we are looking 
at how we deal with this in the long term and taking again the 
guiding principle, let's try to protect the public's interest.
    Mr. Cummings. And is that guided by our legislative, what 
we have done up here in Washington, in Congress, sequestration, 
that is?
    Mr. Clough. Unfortunately, sequestration is an across the 
board cut.
    Mr. Cummings. Mr. Jarvis, I only have a few minutes.
    Mr. Jarvis. First of all, we received no commands from on 
high about how to implement this. We did this from the bottom 
up, from the park level. The decisions were made at the park 
level, we did review them for consistency.
    To your question about, yes, the way that the sequestration 
law was written required us to take it at the park-program 
level. We were not given reprogramming authority, we were not 
given transfer authority. So we were not allowed to move money 
around to balance this out. It was a very, very difficult law 
to implement halfway through the year, as well, an across the 
board, line by line budget reduction.
    Mr. Ferriero. Four appropriation categories, 5 percent for 
each. And OMB directives gave guidance around other things to 
be looking at, like travel, conferences, and those kinds of 
activities. We were very lucky, early in my administration, to 
have hired a new chief financial officer. So from the very 
beginning of my assuming my job, we have been giving new fiscal 
attention to the National Archives budget. So I am very 
thankful for this new chief financial officer's advice.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Mica. [Presiding] Thank you, and I will recognize 
myself for a round of questions.
    This may not be the highlight of the hearings held on 
Capitol Hill today. Nonetheless, it is very important. The 
three individuals before us have some of the most important 
responsibilities, I believe, in our government. You are the 
stewards of our national treasures, whether it is Mr. Jarvis 
with our parks and the things that he oversees that we are 
stewards for of the public, the Smithsonian director, some of 
our treasures, and our records and documents in the Archives. 
You have several different examples of how we have had to 
address responsible financial commitments. The Congress has to 
deal with issues, huge issues of incredible public 
indebtedness. Everyone knew some of this was coming.
    You have two excellent examples as to how this was handled 
fairly appropriately. I think the Archives did an excellent job 
in the review of the documents, preparing the new. The 
Smithsonian likewise limited the impact but planned in advance. 
I am disturbed to read that the National Park Services, and 
specifically the acting Parks director, gave specific 
instructions and got some of the language to continue, spending 
sort of unabated, not planning for the future. You are aware of 
that directive, Mr. Jarvis?
    Mr. Jarvis. I am not sure what you are referring to, sir.
    Mr. Mica. It is an OMB directive and it was, well, also we 
have in January of, January 25th of 2013, the Park Director, 
that is you, said you expect it will result in a reduction to 
visitors service hours, of operation shortening, of reasons and 
possible closing of areas. That was your statement back then. 
Then we have a directive from OMB, July 31st, 2012, and the 
acting director, Jeffrey Zentz, instructed agencies to continue 
normal spending and operations, since more than five months 
remained for Congress to act.
    So you have the Administration directing you, and again, 
your lack of taking any anticipatory action and your statement 
in January. You have two agencies that did act in a proper 
manner and now we are faced with, and I thought I heard you 
say, too, you are going to cut Park Service police. Did you 
have numbers there?
    Mr. Jarvis. Yes, sir. We anticipate, since we had to absorb 
the $5.1 million cut in the U.S. Park Police operating budget, 
we are anticipating furloughing each of the 767 employees of 
the U.S. Park Police for up to 14 days.
    Mr. Mica. Given the events of the last 24 hours, do you 
think you will also continue with that directive?
    Mr. Jarvis. We are going to ensure that our 
responsibilities, particularly for icon security, are 
maintained at current levels. That will require reductions in 
some our outlying responsibilities.
    Mr. Mica. How many people work at the National Park Service 
in Washington, D.C.? I am talking about the office, 
administrative personnel.
    Mr. Jarvis. I am not sure of that.
    Mr. Mica. Anyone have an idea? Five hundred, a thousand?
    Mr. Jarvis. Can I ask for clarification on the question? 
You said how many administrative?
    Mr. Mica. Again, not National Park Service officers, but 
how many administrative people, how many in your headquarters? 
Nobody has a clue?
    Mr. Jarvis. About 900 here in Washington.
    Mr. Mica. And it would appear to me, if you had the 
authority, that some of these people could be moved around and 
we could address some of the services that we provide to the 
public including important security service. Would that be 
possible if you had that authority?
    Mr. Jarvis. What we would need, and we have talked about 
this before, is we need transfer authority. The sequestration 
law did not allow us to move expenses between accounts. And so 
it came down, as we have said, line by line, existing budget. 
The only way we could do that, where if you affected one 
program and used it in another, was if we had transfer 
authority.
    Mr. Mica. The other thing too is that when you face a 
situation like this, you have to put in, implementing measures. 
I have visited many of the parks across the Nation. I have one 
of the little passes and all of that. But I have always been 
impressed with the volunteer programs and there are hundreds of 
thousands of volunteers that would step up if asked. Has there 
been a specific plan to implement the use of volunteers, given 
the budget challenges that you face?
    Mr. Jarvis. Absolutely. We have an incredible group of 
volunteers out there, about 180,000 volunteers.
    Mr. Mica. Have you had a new plan since you have heard 
about these budget cuts, and could you provide the committee 
with a copy?
    Mr. Jarvis. We have not implemented any new plan at the 
park level. At each individual park level, they are working to 
find new sources of funding. Friends groups are stepping up, 
philanthropy. Even in some cases communities are providing 
support and funding. In some cases States are stepping up to 
provide assistance in getting roads open.
    Mr. Mica. And finally, there may be some suggestions from 
some of those parks in those 400 documents that you sent out. 
When do you think we will be able to get those? Any idea?
    Mr. Jarvis. As soon as they are reviewed at the Department. 
I have no problem with sending them to you. They are perfectly 
legitimate details.
    Mr. Mica. I have additional questions I will submit for the 
record.
    I recognize Ms. Norton.
    Ms. Norton. It would be Mr. Davis' time. If he would yield 
to me?
    Mr. Mica. Okay, Mr. Davis, your time?
    Mr. Davis. I will yield.
    Ms. Norton. I appreciate that very much. It is Emancipation 
Day in the District, and they are about to embark on a parade, 
the least emancipated city in the United States is about to 
march in an Emancipation Day parade. Take that and see what you 
can do with it.
    Let me just quickly go through a few questions. Dr. Clough, 
you indicate, of course, and some of the questions you've heard 
from my colleagues apparently don't always digest the process 
or notion that these are across the board cuts. You indicated 
that there might be some slowdown in the African American 
museum. I want to know, what was the President's budget for the 
African American museum, how much was it cut, if it was.
    Mr. Clough. There was a cut of about $5 million, the 
percentage was taken, because it was an across the board cut, 
directly out of the construction budget. Fortunately, the 
budget was funded at $75 million this year. So we can keep the 
budget going. But as we have to absorb additional cuts, that 
could present a problem for us.
    Ms. Norton. What about sequester? Has that affected the 
African American museum?
    Mr. Clough. That was the sequester cut that affected the 
construction cost.
    Ms. Norton. I see.
    Mr. Clough. It also affects the staffing funding that we 
need, because staffing has to grow now to get ready for the 
opening.
    Ms. Norton. I recognize that as we ask all of you 
questions, I am interested in all three of your agencies. 
Because this is, of course, a tourist destination. And we are 
in the middle of, the season is beginning full-fledged now. I 
also recognize that each of these agencies is, like most of the 
Federal Government, labor-intensive.
    Mr. Jarvis, I know a lot about the underfunding of the 
Capitol Police and of the Park Service because you own most of 
the parks in the District of Columbia and because of my work on 
the mall. I was amazed to find, though, is this figure correct, 
that the National Park Service budget is only one-fourteenth of 
the Federal budget?
    Mr. Jarvis. I don't know what percentage we are. I know it 
is very small.
    Ms. Norton. I wish you would confirm or not that. Because 
my office says that is what it is. That will be, of course, 
quite amazing, considering that it is a nationwide service.
    Do the parks produce economic return? As one-fourteenth of 
the budget, what kind of economic return do you produce for the 
Country?
    Mr. Jarvis. It is a ten to one return. For every dollar 
invested in the National Park Service, there is $10 returned to 
the American economy.
    Ms. Norton. I understand, I am already receiving calls, for 
example, because there was a story run about closing some of 
the late-night hours at the mall. I said, well, what is late-
night hour, and apparently because of the beauty of the Lincoln 
Memorial and the lights, we have had that memorial open with 
some staff there, including restrooms, until 11:30. And then we 
are told, well, it might be 10:00 o'clock. I must say, if you 
are sitting where I am sitting and seeing the cuts you are 
making, that might not seem so bad. Because at least it could 
go until night, and people could see the Lincoln Memorial and 
the mall in all of its night-time glory.
    Are you considering reducing the hours of the restrooms and 
of the late-night, the night-time visitation to the mall? And 
is it true that this is not related to sequestration?
    Mr. Jarvis. Let me assure you that the monuments and 
memorials are open 24 hours a day. The question is, whether or 
not they are staffed for rangers to do interpretive programs. 
As with any organization, we are constantly looking for 
efficiencies. At the lowest period, we realized that after 
10:00 p.m. the station drops, not to zero, but it drops 
significantly. And so as a part of our cost savings, we are 
looking at reducing the ranger presence, not security, not 
closing the facilities, but after 10:00 p.m.
    Ms. Norton. How about the National Mall? This is the time 
of year when we have major events on the National Mall. I know 
what has just happened in Boston. Nevertheless, you must be 
preparing for events like July 4th. We ourselves have National 
Dance Day on the Mall. There are many activities on the Mall, 
precisely because of the season.
    What are you doing to, especially in light of what happened 
yesterday, to enhance the security of the mall, in light of 
sequestration and cuts that you say will also come to the 
Capitol Police?
    Mr. Jarvis. We host a number of events on this Mall. 
Obviously the 4th of July, Rolling Thunder, certainly this year 
we have the March on Washington And these are very, very 
important events for the American public, as certainly for the 
District. We intend to hold them all. Obviously our 
responsibilities for the public safety and security and good 
experience for everyone is at the top of our responsibilities.
    That does mean, though, for instance, the 4th of July costs 
the National Park Service over $1 million for that one day, 
operating budget, for overtime, for security, screening, for 
traffic control, all of those things. That means we still have 
to absorb that cut somewhere else, and that is basically what 
we are looking at in terms of reducing overall overtime for our 
U.S. Park Police, looking at how we can reduce in some of the 
outlying areas, so that we can cover these major events.
    Ms. Norton. Mr. Chairman, I certainly hope some members 
will join me in asking that the Congress look again, in light 
of the Boston tragedy, at the cuts that are occurring to public 
safety as a result of this sequestration. Because these events 
must go on. And I am not convinced that, with these services 
and these police agencies not able to move around money, that 
we will have in place the same kind of security that we have 
enjoyed in the past.
    Mr. Mica. I thank the gentlelady. I recognize the gentleman 
from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
panel for taking our questions and responding today.
    In light of what has been talked about this morning, and 
some comments made, I think we need to go back in history a 
little bit and remember that when the President offered the 
sequester, as an alternative to dealing with the budget deficit 
and debt we all should have known was there, he undoubtedly 
thought that the House Majority wasn't serious about the 
deficit or debt.
    When he signed it, he probably thought it would never go 
into effect, the thought of across the board. We cut good 
programs along with unnecessary programs without any real 
discretion. However, I think the three of you and others at the 
front line of leading very important functions that our 
citizens expect to see and that their tax dollars pay for, I 
being one, Mr. Jarvis, who started out my university career 
majoring in forestry and land management, love the out of 
doors. My favorite place on earth is Glacier National Park. I 
will be in the Great Smoky Mountain National Park here in just 
a few short weeks. So I understand the taxpayer loves these 
places and should be afforded their opportunity.
    But you must have been worried, as you looked at it and 
said, well, they can be political and they can do their 
fighting in Washington, but ultimately it comes down to what we 
have to do for the projects that we have the Departments, the 
functions we have and the citizens we serve. Did any of you 
make contact with the Administration through whatever sources 
you have available to you and what chain of command you have, 
did any of you make contact with the Administration to call for 
caution and reality in dealing with other ways of approaching 
our budget concerns and still keeping the functions in place 
that you see as priority? Any of you can go first.
    Mr. Ferriero. I did not.
    Mr. Walberg. Mr. Jarvis?
    Mr. Jarvis. Our contacts were principally with the Office 
of Management and Budget, as we were implementing the sequester 
order or planning for it. We had been planning for this well in 
advance and we were making them as aware as possible that they 
were going to have direct impacts on the ground in every one of 
the national parks.
    Mr. Walberg. Mr. Clough?
    Mr. Clough. We had no direct contact other than the normal 
OMB processes.
    Mr. Walberg. Let me follow this up, then. Mr. Jarvis, you 
indicated you made contact, and the others, through OMB to some 
degree. But it doesn't sound like a great amount of intensity 
was put toward this issue. Mr. Jarvis, you have referred to the 
sequester cuts as sudden and significant in your full 
testimony. Can you explain to me how something that has been on 
the horizon since August of 2011 qualifies as sudden?
    Mr. Jarvis. What I mean by sudden is that we anticipated 
the sequester in January. The later in the fiscal year that we 
get the sequester, the more difficult it is for an operational 
agency like the National Park Service. So we, in spite of what 
is being stated here, we anticipated this and planned well in 
advance. Otherwise, we wouldn't have 1,300 permanent vacancies 
and saved ourselves $43 million. That is actually what is 
saving the public appreciation and use of the parks, is that we 
are able to hire seasonals and backfill that this coming summer 
for its prime operation.
    So we had anticipated it. We just didn't know when it was 
going to come. And coming this late in the year makes it much 
more difficult to absorb in the last remaining months.
    Mr. Walberg. We had an idea of when it was going to come by 
the date that it was set initially for certain. And then pushed 
off.
    Also, the issue of significant. When the American taxpayers 
had to tighten their budgets significantly over the past number 
of years, including our House budgets, committee and individual 
staff offices, a 5 percent cut. No matter how mindless that is, 
when it is across the board, compared to 7.4 percent higher 
level of funding for your department, since 2008. I say there 
has to be better ways of dealing with the increased dollars, 
preparing for the sequester. But also as I stated earlier, if 
there was great concern about this, it boggles my mind that 
there wasn't intense pressure put on the Administration to say, 
you know something, Congress just might let sequestration 
happen. This is the impact it will have. We can't suffer it.
    The question that I would ask, and I see my time has 
expired, Mr. Chairman, but I will submit it for the record, of 
asking direct questions on how Congress can help each of you in 
your responsibilities to achieve further efficiencies and save 
more of the American taxpayers' money. Maybe in the second 
round of questions I can add to that. Thank you.
    Mr. Mica. They can answer. We have been giving everybody a 
few minutes. If you want to quickly respond.
    Mr. Walberg. I appreciate that. Let me ask the question 
again. What can Congress do to help you achieve further 
efficiencies and save more of the American taxpayers' money?
    Mr. Jarvis. For the National Park Service, because of the 
way our budget is crafted, which is park by park, we would need 
what is known as transfer authority.
    Mr. Walberg. I have that written down. What else?
    Mr. Jarvis. One thing I want to mention is that the 
National Park Service will be celebrating its 100th anniversary 
in 2016. We do have a legislative package that we are 
submitting through our authorizing committees that would grant 
additional authorities for philanthropy, for cooperative 
agreements to work with our private sector partners in a much 
more entrepreneurial and innovative way to bring that side to 
the operation and financial health of the organization. We 
would be glad to work with you on that.
    Mr. Mica. Do the other two witnesses want to quickly 
respond?
    Mr. Clough. I would just say that it would help us, I have 
been in the non-profit sector as an executive for a long time, 
president of a university. We need stability. It would be 
helpful for us to have more stability and a long range view of 
the budget so we can plan. It is difficult to plan now because 
things are not stable.
    Mr. Walberg. Well, I would suggest you talk with the Senate 
about that. I agree with you, stability is important. Mr. 
Ferriero?
    Mr. Ferriero. This committee has done some great work in 
marking up PRA, Presidential Records Act, Federal Records Act, 
legislation. I would encourage pushing that forward. That would 
be a great help to us.
    Mr. Mica. Thank you. We will turn now to the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you very much.
    So just to put this in a little context, it seems to me 
what we are dealing with here is a massive act of legislative 
malpractice, and then an attempt to blame it on the people that 
have to deal with the consequences on that. That happens when 
you go around ideologically trying to convince the American 
people that every dime spent of your tax money is wasted in 
fraud or abuse, and then go around exclaiming that you want to 
make cuts but don't have the political courage to actually 
determine where the cuts are going to be.
    And certainly nobody here should be under the illusion that 
Congress abdicated its authority and gave the President 
discretion of where to cut. Because if they had a full 
appreciation of the sequestration law and its reference back to 
early iterations, they would know that as you have already 
discussed, every program, project and activity has to suffer 
the cuts.
    So this is a consequence of that malpractice that people 
should have known, I suspect many of them didn't know what they 
were doing in that regard. And so we all should be concerned 
that that is what is going on. We should not be looking to all 
of you to lay blame as to what you implemented. Your hands were 
tied, just as those people that were interested in pushing on 
the sequestration tied their own hands behind their back, laid 
down on the rails and screamed when the train came, on that 
basis.
    So looking forward, I have some real concerns. If this 
stays in, and it sounds like my colleagues are all excited 
about having sequestration stay, in fact, its mindless 
arbitrary cuts will continue on that basis, what is it going to 
do for the National Parks' impact on local communities' 
economic well-being? Mr. Jarvis, in my community alone, we have 
a number of groups that work regularly with the Park Service. 
It really enhances the economy of that district, all the way up 
and down the coast, all the way from the Atlantic Ocean to the 
Merrimac River. It is very important for them.
    So what do you envision for the future, if these cuts stay 
in effect? What is the Park Service going to have to do as it 
goes forward? I suspect that you can't have the seasonal 
hirings backfilling for the others as a future plan of how you 
are going to react, right?
    Mr. Jarvis. No, sir. These cuts, if they remain, really 
creates a significant problem for the National Park Service. 
The impacts will accumulate, particularly to the gateway 
communities. Many of our gateway communities, as you well know, 
their economies are based on the tourism that comes to our 
national parks. They basically succeed based on their shoulder 
seasons. Many of these operations can't survive on a three-
month, they need a five-month season. As a consequence, we are 
having to reduce, in those shoulder seasons.
    In talking to our hospitality association, they are 
concerned that people are not booking. They are already seeing 
a reduction in bookings as a result of the American public 
feeling that the parks are not going to be available to them or 
services will be reduced.
    So I think this is a significant problem over the long term 
for us, if the sequester reductions do apply.
    I just want to make one very strong point that the National 
Park Service is, as with my colleagues here, these are 
investments that need to be made that have reaped great benefit 
to the American public. We draw international visitors from 
around the world. We provide extraordinary experiences for the 
American public. And we return ten to one to the economy.
    Mr. Tierney. I couldn't agree with you more. I am as 
frustrated as you and others that this mindless sort of 
approach to things would be taken on that basis. Congress could 
have given the President the authority to do this in a way that 
was flexible, which he then could have passed on to all you 
folks. But of course, they chose not to give up their authority 
in that regard. But they also chose not to take their 
responsibility in identifying where they thought all of this 
waste, fraud and abuse was, identify it and then give you a 
plan going forward.
    So Mr. Clough, let me ask you, the Smithsonian, I 
understand, by now plans to defer preventive maintenance, 
facility inspections, technology upgrades, is that correct?
    Mr. Clough. That is correct.
    Mr. Tierney. How long can you continue to defer those costs 
under this plan without some really significant damage to what 
it is you see as your mission?
    Mr. Clough. It is a cumulative toll. In time, it gets worse 
and worse. We normally by industry standards should get about 
$100 million a year, given our facilities base. But a lot of it 
is historic, and we are open every day of the year but one, so 
it is heavily used. And we have to keep our energy supplies 
going almost continuously, because we have collections, 
valuable collections in the museum.
    And we should nominally have about $100 million a year. We 
have been running about $75 million, and sequester is going to 
cut that down now by probably another $5 million. And that 
obviously cumulativly will take its toll.
    Now, what we try to do is to examine each and every case. 
We have a priority list, and we try to attack that priority 
list each and every year that we can when we are doing our 
work.
    Mr. Tierney. Now, do you term all that waste, fraud and 
abuse? Is that the way you think spending that money is?
    Mr. Clough. We don't obviously see that as waste, fraud and 
abuse. I would say we are working hard to use technology to 
increase our productivity. I talk a lot about digitization at 
the Smithsonian as creating access, which it does. But it also, 
as we digitize our collections, it is less wear and tear on the 
collections. For example, we have lots of re-enactors who love 
to come see our Civil War uniforms. If we can show them a great 
digital image and they don't need to actually hold in their 
hands the real thing, it cuts down on wear and tear in the 
collection.
    So we are trying to invest in new technologies to help us 
address some of these problems.
    Mr. Tierney. Hasn't the Inspector General given you some 
pretty good recommendations on how to improve your maintenance 
and preservation of all your collections?
    Mr. Clough. Yes. We have a very good Inspector General, and 
we pay very close attention to the recommendations from the 
Inspector General. In some cases they recommend things that 
they believe will reduce costs, but in some cases their 
recommendations actually increase costs. They go to a 
collection center and find that we don't have up to date 
cabinets, for example, it costs us money to put those cabinets 
in. So from time to time, the Inspector General's 
recommendations will actually increase our costs.
    But we pay very close attention to their recommendations.
    Mr. Tierney. What is going to be the practical implication 
to the Smithsonian if you are not able to implement their 
recommendations?
    Mr. Clough. Well, we hope we will continue to do our very 
best to meet those recommendations. And we have a board of 
regents and we discuss these issues with our board of regents 
very carefully, six members of Congress are on our board. And 
we take these recommendations very seriously.
    Mr. Tierney. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman, and recognize now the 
gentleman from Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you, Mr. Chairman.
    Gentlemen, is there ever a case where a program has more 
than enough funding?
    [No audible response.]
    Mr. Bentivolio. That is what I thought. How about, I 
understand that the National Park Service, Mr. Jarvis, spent $7 
million in bonuses to employees in 2011. Did the National Park 
Service issue bonuses in 2012?
    Mr. Jarvis. Not yet. We have reconsidered all bonuses and 
have put them through a second review, looking at only those 
that are required by law.
    Mr. Bentivolio. Is there criteria for giving bonuses? Is 
that readily available for me to review or for the committee to 
look at?
    Mr. Jarvis. Yes, absolutely.
    Mr. Bentivolio. Okay. Could you provide the committee with 
information on where I can find that? Thank you very much. Mr. 
Chairman, I yield back my time.
    Mr. Mica. No further questions. Then let's see, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman. And thank you to our 
representatives from Archives and National Park Service and 
Smithsonian.
    I am kind of perplexed by this conversation today. Because 
if the American people don't want to increase their taxes, that 
is their choice. And then there is a shrinking in the services 
that we provide. Now, to Dr. Clough, in terms of the 
Smithsonian, it is an extraordinary gift to the American 
people. And in many respects, I think postponing deferred 
maintenance is a problem and it should be something that you 
think long and hard before you forego that.
    But have we come to a point in time where offering the 
Smithsonian free to everyone is something we can afford? The 
Newseum charges $25 a person. Have you explored whether or not 
charging $5 a person, children free, would be something that 
would augment your budget significantly?
    Mr. Clough. We have talked a lot about that. I think my 
general philosophy, I will tell you that first, and then I want 
to indicate that my board of regents are very much in support 
of keeping the admission free to the Smithsonian, is that the 
American people paid for the buildings, they paid for the 
collections. I don't think they should have to pay a third time 
to get into the museum.
    If you look at the demographics of the people coming to the 
Smithsonian, many of them do not have a lot of money. I walk 
the mall, I stand in front of the museums, and I watch the 
folks go in. Many of them don't even buy food in our museums. 
They go back outside and they eat their lunches outside. And 
there is a great joy in their ability to go into one museum and 
then go into the next museum without having to worry about the 
admissions cost.
    Admissions, if you want to apply them, cost to collect. 
There would be an initial big bump in cost, actually, to put in 
the equipment, to put in the people, to put in the time, to put 
in the accounting and the oversight all associated with 
admission.
    Ms. Speier. All right, if that is where you are, and I 
respect that, then if the American people are saying no to more 
taxes, shrink government, then we have to comply with that. You 
need to decide where you are going to shrink in terms of the 
Smithsonian.
    Mr. Ferriero, I have had the opportunity to visit the 
National Archives on a number of occasions. It is an 
extraordinary experience, there is no question about it. Again, 
we have to live within our means. It is something that we are 
just going to have to do.
    In terms of providing crucial services to our veterans, 
documentation so they can get their medals replaced or apply 
for disability services, whatever it may be, that is critical 
as a function that I think you absolutely have to perform.
    Now, have you costed out what, first of all, do you charge 
for that, and if you don't charge for it, what does it cost per 
request?
    Mr. Ferriero. We have transactional data on what it costs 
per request. I don't have that at my fingertips. Maybe someone 
in back of me does, $30 per request.
    Ms. Speier. And do you presently charge for that?
    Mr. Ferriero. We do charge for that.
    Ms. Speier. Enough to cover the cost?
    Mr. Ferriero. It covers the cost, that is correct.
    Ms. Speier. Okay, that is good to know.
    Mr. Ferriero. And it is our number one service. The 
veterans' service is the number one service that the National 
Archives provides.
    Ms. Speier. Mr. Jarvis, in terms of the National Park 
Service, I agree that it is an extraordinary treasure that we 
have. What do you charge now?
    Mr. Jarvis. We charge a variety of different rates, 
depending on the park size. They range from $5 to $20. We 
collect about $160 million a year in fees.
    Ms. Speier. Is it true that if you are a senior citizen you 
can buy a pass for your lifetime for a certain amount of money?
    Mr. Jarvis. That is correct.
    Ms. Speier. And how much is that?
    Mr. Jarvis. Ten dollars.
    Ms. Speier. All right, I think we need to look at that. Ten 
dollars for your lifetime, at the age of 65? A lot of people at 
65 that can pay a little more than $10 for the rest of their 
life. I yield back.
    Mr. Mica. The gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman, and thank you all 
for being here today. You all have important positions, and I 
guess part of the reason we are here today is to understand 
sequester and the effects it is having on you.
    I think it is important to look and acknowledge that we as 
a Country have a major debt problem and we have a major 
spending problem. Can you all agree with that? If this was the 
situation you were in in your own home you would probably think 
you needed to make cuts somewhere, would that be correct? 
Everyone agrees.
    Okay. So sequester was not the perfect outcome, we all know 
that. But I think everyone agrees that we have to do something 
to get our debt and deficit spending under control. And because 
of the failure of the Super Committee, here we are, we have 
these cuts called sequester.
    It is the responsible thing to do to reduce your debt and 
deficit, would you all agree with that? Okay.
    So Mr. Jarvis, do you think that, even though it is the 
responsible thing to do, do you feel, let me just ask you 
outright, do you feel that maybe you over-exaggerated the 
effects or the consequences of sequester?
    Mr. Jarvis. No, sir.
    Mr. DesJarlais. You think that everything you said was 
right in line as it should have been in terms of you doing your 
fair share to help get rid of some of this debt and deficit? 
You feel like your actions were appropriate?
    Mr. Jarvis. Yes, sir.
    Mr. DesJarlais. Okay. In January a memo you wrote that the 
sequester will result in reductions to visitor services, hours 
of operation, shortening of park seasons and possibly closing 
park areas. Yet in March, you told the Hill there will be no 
park closures, that you are not closing down. So which is it?
    Mr. Jarvis. Two different things. I said, and I stand by 
it, that we are not closing any national park units. There are 
no national parks that are closing. What we are doing is 
reducing the operating hours, reducing services at some of them 
and reducing the ranger-led programs as well as maintenance. So 
you really have two options. You can close parks, and to take a 
$113 million cut, we could close maybe 70 to 100 smaller parks, 
or we could close all parks in the system for up to a month, or 
you spread the impact across all units. You really have only 
those options. So we chose to spread the impact across all 
units, reducing services but not actually closing any 
individual park.
    Mr. DesJarlais. Okay. In your testimony today you stated 
NPS excluded from furloughs positions that are required to 
ensure the health and safety of visitors. Yet you also said 
that due to sequestration, if there is an emergency, it might 
be slower to get our folks out of there. So why are you saying 
emergency response times might be slower, while you are also 
saying you are not furloughing health and safety personnel?
    Mr. Jarvis. We are not furloughing health and safety 
employees, but we did not hire 900 permanent positions, which 
includes some our law enforcement and EMS and firefighting 
employees, as well as we are not hiring 1,000 seasonals. Our 
seasonal operation is the lifeblood of the field rangers that 
are out there responding in the summer. If I don't have as many 
employees on the ground, that is going to have a direct result 
in response time.
    Mr. DesJarlais. So do you worry about the safety of 
visitors then, because of sequestration?
    Mr. Jarvis. I always worry about the safety of our 
visitors.
    Mr. DesJarlais. I am assuming then you have asked Congress 
for the ability to reprogram search and rescue funds?
    Mr. Jarvis. We have requested through OMB that we have some 
reprogramming and transfer authority. But we have not received 
it.
    Mr. DesJarlais. I thought the question about bonuses was 
very interesting as well. It is something that the private 
sector doesn't fully understand, how the law requires the 
Federal Government to pay more. I will be interested to see 
what exactly that is.
    You said in your testimony that finding long-term 
efficiencies within park-based budgets is challenging and that 
NPS strives to eliminate contracted services that could be 
deferred within minimal short-term repercussions. But since 
August 2011, when the President signed legislation that 
mandated sequestration, NPS entered into 45 advertising 
contract totaling more than $5 million. Are you aware that the 
President signed legislation August of 2011 mandating 
sequestration, correct?
    Mr. Jarvis. Yes. Though the sequester wasn't implemented 
until March of this year.
    Mr. DesJarlais. Okay, but you knew it was signed, you were 
just hoping for the best, that it wouldn't happen?
    Mr. Jarvis. I really don't know what you are talking about.
    Mr. DesJarlais. Why did you enter into more than $5 million 
in advertising contracts, including a $58,000 contract for a 
solar-powered message board, knowing that this might be coming?
    Mr. Jarvis. I am unaware of those contracts. I don't know 
what you would be referring to in terms of advertising 
contracts. We don't purchase advertising.
    Mr. DesJarlais. Okay. You said that sequester would result 
in such things like trash not getting collected, restrooms not 
being cleaned, toilet paper being out, road not being plowed, 
less interpreters on the ground, is that correct?
    Mr. Jarvis. Yes, that is correct.
    Mr. DesJarlais. And those are things that people would 
notice, wouldn't they?
    Mr. Jarvis. There probably would be some notice of that, 
yes.
    Mr. DesJarlais. Well, you are aware that your budget staff 
told committee staff that they were not sure 99 percent of 
visitors would even notice the cuts?
    Mr. Jarvis. I think what they are referring to is that in 
the peak season, which is really the middle of the summer, that 
most visitors would not notice, because that is what we have 
done. It is the shoulder seasons, when the visitation is 
significantly lower, that there would be notice of those 
impacts.
    Mr. DesJarlais. Okay. I just think it is important we do 
something responsible as a Country, even if sequestration is 
not the perfect way to do it. Using messaging to basically 
scare people into thinking that doing something responsible has 
to be painful is really unnecessary. I know that you don't 
think you did that, but some of this evidence would point 
otherwise.
    I yield back.
    Mr. Mica. Thank you. I recognize Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. I thank you, 
gentlemen, for coming and sharing with us this morning.
    The Executive Order for implementing the sequester was 
issued in late March. Federal agencies are now beginning to 
implement across the board cuts required by statutory language 
and determine how precisely the cuts will impact their mission 
and the public. It appears to me that many agencies, including 
those before us today, planned for the possibility of cuts 
since last year. I would like to better understand what went 
into those planning efforts and how they are assisting the 
agencies to accommodate the cuts required by sequestration.
    Mr. Jarvis, for example, I understand that prior to 
sequestration and in anticipation of tightening budgets, the 
Park Service began a process of trimming expenditures at parks 
and other units last year. For example, your agency implemented 
a hiring freeze on permanent positions, which left vacant a 
number of staff positions going forward, allowing you to accrue 
about 1,300 funded vacancies. It is my understanding that you 
plan to leave about 900 of those positions unfilled, which will 
save your agency about $43.5 million through the end of the 
fiscal year.
    Is that correct?
    Mr. Jarvis. Yes, sir, those figures are correct.
    Mr. Davis. I also understand that in anticipation of forced 
cuts, you also eliminated some lower priority support costs, 
such as travel, overtime pay, merit awards, supplies and 
contracted services, to save money. Is that correct?
    Mr. Jarvis. Yes, sir, that is correct.
    Mr. Davis. Were there any other planning actions that you 
implemented or plan to implement as we go through the 
sequestration?
    Mr. Jarvis. We are deferring anything to the next fiscal 
year that we can as well. We are looking at, in terms of our 
deployment of employees, to make sure that they are deployed to 
the highest visitor use areas. We are building our 
philanthropic side of our organization, the National Park 
Foundation, the legislatively-created foundation here to raise 
funds, to provide assistance. And we are looking to partner 
with our other sister agencies, the other Federal and State 
agencies, to ensure that facilities can be open. For instance, 
at Badlands National Park we are working with the State there 
to ensure that a highway road stop that also serves as a small 
visitor center for the park would remain open.
    So across the system, we are looking for volunteers, local 
assistance, shared use agreements and all of those to ensure 
that we provide quality service to the public.
    Mr. Davis. Thank you.
    Mr. Ferriero, I understand that your agency also began 
planning for the possibility of cuts early last year. For 
example, I understand that you imposed a hiring freeze 
beginning in November of 2012, which reduced your workforce by 
300 employees. How much did you save by that action?
    Mr. Ferriero. That 300 employees translated into about $9 
million.
    Mr. Davis. I also understand that your agency cancelled 
certain non-mission essential conferences, reduced travel 
budgets and attempted to pre-identify approximately $20 million 
in cuts to contracts, grants and other non-labor expenditures 
that could be implemented if the sequestration came about. Is 
that correct?
    Mr. Ferriero. That is correct.
    Mr. Davis. Quickly, Secretary Clough, similar to the other 
two agencies, I understand that your agency also implemented a 
hiring freeze and began other efforts to defer some maintenance 
activities.
    Mr. Clough. That is correct. I should point out that when I 
came to the Smithsonian and looked at the statistics for the 
last 10 years, it became obvious to me that over time the 
Smithsonian lost about 600 Federal positions against the cost 
of inflation. So we began thinking about how to do business 
more efficiently.
    In addition, because there were concerns about possible 
budget cuts in the last few years, we developed a menu of 
opportunities, or places, I should say, where we would adapt to 
these kinds of cuts. So we have been thinking about this for a 
long time. So we are implementing something that we have been 
thinking about, some of these measures are temporary and we 
will have to readjust our strategy as we move forward to a 
permanent cut.
    Mr. Davis. Thank you very much, and thank you, Mr. 
Chairman. I yield back the balance of my time.
    Mr. Mica. Thank you. We'll recognize Mr. Jordan.
    Mr. Jordan. I thank the chairman.
    Mr. Jarvis, you issued a memo on January 25th of this year, 
``The lateness of the implementation will intensify the effects 
of the sequester.'' I want to go back to where Dr. DesJarlais 
was, what was the date again when sequester was passed into 
law? August 2nd, 2011?
    Mr. Jarvis. August 2nd, 2011.
    Mr. Jordan. Almost 20 months ago, or actually I think 
probably a full 20 months ago. Why did you have to wait until 
January? Mr. Ferriero at the Archives implemented a hiring 
freeze in 2011. Did you guys implement a hiring freeze in 2011?
    Mr. Jarvis. We issued a memo in June of 2012.
    Mr. Jordan. No, it is yes or no. Did you have a hiring 
freeze in 2011?
    Mr. Jarvis. We did not have a hiring freeze at the time.
    Mr. Jordan. So you hired more people in 2011 after the 
sequester was enacted into law?
    Mr. Jarvis. That is correct.
    Mr. Jordan. You did. Okay. Did you enact a hiring freeze in 
2012?
    Mr. Jarvis. We put a hiring control.
    Mr. Jordan. What does that mean? Did you hire more? Are 
there more people working now than there were before, in 2012?
    Mr. Jarvis. There are less.
    Mr. Jordan. No, no, in 2012. Did you have more people 
working later in 2012 than you had at the start of 2012?
    Mr. Jarvis. I don't know the answer to that.
    Mr. Jordan. So we don't know if you had a hiring freeze or 
not?
    Mr. Jarvis. We know we had a hiring control.
    Mr. Jordan. Okay, but I didn't ask that. I asked did you 
have a hiring freeze?
    Mr. Jarvis. We did not put a hiring freeze until January 
2013.
    Mr. Jordan. So in 2011, you didn't do a hiring freeze, 2012 
you didn't do a hiring freeze. The Archives decided to do one, 
because they knew the law was the law in August 2nd, 2011. You 
didn't do that. Did you have bonuses in 2011?
    Mr. Jarvis. Yes.
    Mr. Jordan. Did you have bonuses in 2012?
    Mr. Jarvis. No. Not yet.
    Mr. Jordan. Not yet? You mean you are going to have some 
bonuses?
    Mr. Jarvis. There are some required by law.
    Mr. Jordan. Okay. What about did you have travel and 
conferences that you attended in 2011?
    Mr. Jarvis. Very few.
    Mr. Jordan. But you did?
    Mr. Jarvis. There were some, yes.
    Mr. Jordan. Okay, what about 2012?
    Mr. Jarvis. Very few.
    Mr. Jordan. So you continued it in 2012?
    Mr. Jarvis. Sir, the National Park Service is a large 
geographic area.
    [Simultaneous conversations.]
    Mr. Jordan. The point is, I ask the questions and you 
answer. Here is the point. The law was enacted August 2nd, 
2011, 20 months ago. You issue a memo this January 2013, 
saying, oh, the lateness of sequester is going to cause 
terrible things to happen. And yet you gave bonuses in 2011, 
potential bonuses in 2012, you hired more people in 2011, you 
can't tell me if you hired more people in 2012, you took 
additional, you took conferences in 2011 and travel in 2011 and 
conferences and travel in 2012. And yet we have a gentleman 
right beside you who implemented a hiring freeze clear back in 
2011 because he can plainly understand what might happen.
    All true.
    Mr. Jarvis. The National Park Service is a very different 
organization than Archives.
    Mr. Jordan. Let me do something different here in my 
remaining two minutes. The White House, I want to know if this 
plan not to take action was driven by you or by the White 
House. So on the White House website, February of this year, it 
states relative to the national parks, ``Many of the 398 
national parks across the Country would be partially or fully 
closed, with shortened operating hours, closed facilities, 
reduced maintenance and cuts to visitor services.''
    Did the White House put that up? Did they consult with you 
before they put that up? Did you give them that information? 
Did you talk to someone at the White House? Tell me how that 
was put on the White House website.
    Mr. Jarvis. I have no idea how that got on the White House 
website. We did provide information about the impacts of 
sequestration through OMB.
    Mr. Jordan. So did you talk to anyone specifically at the 
White House about what may happen to the national parks?
    Mr. Jarvis. No, sir, I did not.
    Mr. Jordan. You did not. But this sounds vaguely familiar 
to your statement on January 25th, I assume maybe the same 
memo, where you said, we expect the sequester ``will result in 
reductions to visitor services, hours of operation and 
shortening of season and possibly the closing of areas during 
periods where there is insufficient staff to secure protection 
of visitors, employees and resources.'' It sounds pretty 
similar. But there was no coordination between you and the 
White House?
    Mr. Jarvis. Not between me and the White House.
    Mr. Jordan. You didn't talk to anyone at the White House?
    Mr. Jarvis. No, sir, I did not.
    Mr. Jordan. Okay. Did anyone on your staff communicate with 
White House officials about details and impacts of the 
potential sequester?
    Mr. Jarvis. No one on my staff.
    Mr. Jordan. Let me ask you this, then. Because I don't know 
where the blame has to go for lack of preparing. Let's look at, 
what about this memo from Acting OMB Director Jeffrey Zentz, 
who said, ``Continued normal spending and operations,'' this 
was July 31st of last summer, of 2012, ``Continued normal 
spending and operations since more than five months remain for 
Congress to act.'' Do you remember receiving that memo? Did 
that have an impact your decisions not to reduce hiring, not to 
reduce travel and conference attendance, and not to forego 
bonuses?
    Mr. Jarvis. We did reduce travel. We did reduce 
conferences. And we put hiring controls on. So actually, we did 
get that memo and we implemented a restriction across the board 
in the National Park Service planning for this. We did not put 
a hiring freeze on until January.
    Mr. Jordan. But that is not, but this is communication from 
the White House that says, continue normal things. Is it normal 
for, so what I am trying to figure out is, when do you pay 
attention to the White House, when you don't, when do you plan 
ahead, when you don't. Because this memo says, keep doing the 
normal things, and based on what you did in 2011, it is normal 
to give bonuses, it is normal to have travel and conferences, 
and it is normal not to having a hiring freeze, is that right? 
And then here you have the OMB director saying, continue normal 
spending and operations, since more than five months remain for 
Congress to act.
    So you just told me you contradicted what the OMB director 
said. My first question you said no, I can't tell you whether 
we have a hiring control, not a hiring freeze, so you couldn't 
give me an answer. But now you are saying no, we contradicted 
what the OMB director said. So I am just trying to figure out, 
what did you guys do, who did you listen to, how did you make 
your decisions.
    Mr. Jarvis. What we decided to do is be as conservative in 
our application of our budget and travel, supplies, materials, 
beginning in the middle of 2012 in anticipation of the 
sequestration. Our paper will prove that to you. We took a 
conservative approach to this from the very beginning in spite 
of what OMB said. We knew that our responsibilities, that is an 
OMB memo that covers the entire government.
    Mr. Jordan. Respectfully, I think the American people might 
disagree. Because as I said earlier, you have another director 
of an agency right beside you who decided to implement a hiring 
freeze in 2011. You had the opportunity to do the same, you 
chose not to. And now we have this contradiction based on what 
the White House OMB director had sent to you.
    With that, Mr. Chairman, I would yield back. I appreciate 
the extra time.
    Mr. Mica. I thank the gentleman.
    I recognize Mr. Horsford.
    Mr. Horsford. Thank you, Mr. Chairman.
    The benefit of being a new member is I get to actually 
listen to all of my colleagues and their concerns and also the 
witnesses. It has been more than 100 days now since I have been 
here. I for the life of me don't understand why we keep having 
these hearings that, to take my colleague's quote that he just 
said, I don't know where to place the blame or where the blame 
has to go.
    Why do we have to be in the blame game at all? Why can't we 
focus on what needs to be done to get our economy moving so 
that these cuts don't happen to begin with? My constituents 
sent me here, I believe the majority of the American people 
want us to work together to solve problems and to avoid the 
harm that the sequester has caused.
    Now, I think it is critical that the public understand that 
this reprogramming authority is not some kind of unrestricted 
power that the agencies have to pick and choose which funding 
priorities they want to make. It is a highly limited authority. 
Claims that agency officials are not being straightforward with 
the public about their implementation of sequestration is 
simply not true. And I think that it is rhetoric and 
gamesmanship and brinkmanship of turning these hearings into 
something that they are not.
    I would rather work with the agencies to figure out what we 
need to do to benefit the public. So with the time I have 
remaining, I would like to raise some concerns of constituents 
from my district as they relate to the National Park Service.
    A part of Lake Meade's 1.5 million acres lies in Nevada's 
Fourth Congressional District, which is the fifth most visited 
national park unit last year, with over 6.3 million visitors. 
Mr. Jarvis, you said that there is a ten to one return on 
investment based on the work of our National Park Service. It 
is my understanding that the visitor center at Lake Meade 
National Recreation Area will be closed two days a week now, 
and that the national park unit has braced for cuts in park 
security, operations, and efforts to curtail an invasive 
species, the quagga mussel, which is affecting the oxygen 
levels in the water, disrupting food chains and causing damage 
to facilities.
    Mr. Jarvis, what efforts is the National Park Service 
undertaking to address issues like this that I imagine aren't 
just happening at Lake Meade but potentially at other national 
parks?
    Mr. Jarvis. As I indicated earlier, each of the individual 
National Park units had to take the 5 percent cut at the park 
level. For Lake Meade National Recreation Area, that is an 
$889,000 cut to their operation, halfway through the fiscal 
year. And there is no way you can take that kind of cut at a 
highly operational park like Lake Meade without having direct 
impacts on the operations.
    One of the key components here is that most of our parks 
operate at about 85 to 90 percent fixed cost. That mean 
permanent salaries, utilities, fleet, just basic operations. 
When you take a 5 percent cut, that hits the discretionary part 
of the budget, which is basically supplies, materials and 
seasonal operations. So they are directly having impacts. We 
tasked the park to make decisions on what they can do.
    In terms of some of the key drivers in that area, such as 
quagga mussels, we are looking to use the fee accounts and we 
have a request in the fiscal year 2014 budget specifically to 
improve overall our control on that invasive species.
    Mr. Horsford. Thank you. I know my time is expiring, but I 
think in part if we could get some more information of what the 
additional cost could be, based on the implementation of the 
sequestration. Again, this is an example of now, if we cut back 
it is actually going to cost us more in the long run. That is a 
fool's choice, in my opinion, and on behalf of my constituents.
    Again, Mr. Chairman, I would hope that we can refocus our 
committee's efforts around solutions that will get our economy 
moving and less on the blame game between our Federal agencies. 
Thank you.
    Mr. Mica. I thank the gentleman.
    The gentleman from North Carolina, Mr. Meadows, you are 
recognized.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank you all for coming to testify today. As we look at 
that, as my esteemed colleague opposite has just mentioned, it 
is not about gamesmanship. One of the problems that I get 
concerned about is that we have essentially made this into a 
game of rhetoric, placing false blame and false consequences at 
times. That is what we are trying to get to.
    Mr. Ferriero, with regard to the National Archives, you and 
I both know that I have been there to see your operation. I 
want to compliment you on a job well done. With that, and you 
didn't know that this was going on, but at that particular 
time, I asked you about sequestration and the effects of it on 
your agency. You gave me a non-political response, which I 
appreciated. You said, we are managing through it. Obviously 
any cuts are painful, but we are managing through it as a good 
manager would. I want to thank you and go on record as thanking 
you for that type of response. We need to see more of that in 
Washington, D.C.
    With that being said, I would ask that you highlight 
perhaps two areas that you are most concerned about with regard 
to sequestration that we should address from a Congressional 
standpoint.
    Mr. Ferriero. Two that I would highlight, preservation. We 
are sitting on 12 billion pieces of our records in parchment 
paper, and deteriorating. And audio visual materials that are 
deteriorating. So our ability to keep up with ensuring that 
they are going to be available for future generations is 
something that worries me.
    The other thing is the investment needed in the Electronic 
Records Archive. We have moved from development into operations 
and maintenance. We have the agencies on board in terms of 
delivering their records to us electronically. But there are 
some enhancements that have to be made to make it much more 
functional. This is input from the agencies who are using it.
    Mr. Meadows. I thank you for that. I can tell you as one, I 
am more inclined, when someone manages through these 
situations, to look at the requests that they make in a more 
germane way. It is something that adds additional credence and 
credibility in terms of responses from that.
    Let me go on to Mr. Jarvis. With regard to the National 
Park Service, there is a thing here in Washington, D.C. that 
many times they call the Washington Monument syndrome. Are you 
aware of that? I think some of the heated rhetoric that you are 
hearing today is because we are concerned that some of that 
Washington Monument syndrome has crept into this sequestration.
    Even your staff, I believe, has told people that they are 
not sure that 99 percent of the visitors will even notice that 
there was a sequestration cut. Yet you have talked about trash 
collection, toilet paper, things like that. Would you say that 
those are things that people would notice?
    Mr. Jarvis. I think they would notice. I notice it. Having 
worked almost 40 years for the National Park Service, I walked 
around the Tidal Basin during the middle of the Cherry Blossom 
Festival, and I noticed trash cans a little over-full, and I 
noticed fewer rangers than would be normal for that kind of 
operation. So we don't want the public to notice it, because we 
take a great deal of pride in providing these places. We don't 
want to impact the public. That is why we have concentrated the 
reductions on the shoulder seasons, rather than in the center 
of their prime operation.
    Mr. Meadows. I am glad that you said that. Because in my 
district, there are signs that have gone up that say, we are 
closing operations. Printed due to sequestration, on permanent 
signs that have been placed in my district. Why would you say 
that that would have happened if indeed we were not trying to 
make a political statement?
    Mr. Jarvis. I am unaware of any signs.
    Mr. Meadows. I have pictures. I will be glad to share them 
with you.
    Mr. Jarvis. I would like to see them. And I would instruct 
the parks to take those down.
    Mr. Meadows. I want to know how much we have spent on 
permanent signs that talk about sequestration. So I would ask 
that you respond to that.
    Mr. Jarvis. That is inappropriate.
    Mr. Meadows. Are you aware personally of any conversations 
that have happened within the National Park Service or DOI that 
have talked about making sequestration as painful as possible?
    Mr. Jarvis. No, sir. We did not want to make this painful.
    Mr. Meadows. I know you didn't want to. Are you aware of 
any conversations that have taken place where making cuts 
painful has been discussed? Let me tell you the reason why I 
ask. I have talked to some Park Service employees who have 
indicated that they were told that the cuts coming down would 
be painful, and that came from management. I was saying, well, 
I understand that they won't be painful, that we are going to 
manage our way through this. But yet somehow they got the 
impression from people within your organization that they would 
be painful. So you are not aware of any conversations or any 
memos or anything discussing that?
    Mr. Jarvis. I am not. But I want to make a distinction 
here. There is a difference between intentionally making them 
painful or the fact that they will be painful. The Park Service 
is an operational organization. We are not a grant-making 
organization. We run parks. And so a cut of this level is 
painful by definition. We have worked to try to minimize that 
pain. But I will tell you that we have not instructed anyone to 
intentionally make this painful to the public.
    Mr. Meadows. I can see my time is out. I yield back and 
thank you, Mr. Chairman.
    Chairman Issa. [Presiding] Thank you.
    We now recognize the gentleman from Virginia for his 
questions.
    Mr. Connolly. Thank you, Mr. Chairman.
    Could my time start at five, please?
    Chairman Issa. I thought we were going to give you as much 
time as you needed.
    Mr. Connolly. Oh, great. Okay.
    First of all, let me thank all three of you for managing 
through a very difficult and mindless budgeting exercise, but 
real, nonetheless. All three of you represent revered 
institutions, respected and very much beloved by the public. In 
listening to this hearing as I have, you would all be forgiven 
for feeling you find yourself in the midst of a Kafka-esque 
scenario. I myself can't quite follow the logic of some of my 
colleagues.
    Sequester should be blamed on President Obama, it was his 
idea. Really. Because I seem to recall the President wanting a 
clean debt ceiling vote in August of 2011, and for the first 
time in history, he was denied it. And for the first time in 
history our credit rating went down. It was not the President's 
idea.
    We created a Super Committee doomed to failure because half 
the members of that committee would not even entertain a 
discussion of revenue. You should have known about 
sequestration, should have been planning for it all along, you 
should have known we meant it. How are you supposed to know 
that? Like this Congress or the previous Congress have been 
consistent in their economic message? Really, about the fiscal 
cliff, about the Bush taxes, about sequestration, about the 
debt ceiling? About nothing. And oh by the way, had you 
anticipated that we were serious all along, what were you to do 
with the fact that the Majority, which says that it addressed 
sequestration not once but twice, their answer was to eliminate 
all the cuts on the defense and national security side and 
double down on the domestic discretionary side. So in other 
words, the sequestration you are now wrestling with would have 
been double.
    Somehow you should have fathomed that. You should have 
divined what we actually would do and how irresponsible and 
reckless we would become.
    I don't share that view. I think you are being asked to 
deal with something unprecedented and not responsible. And by 
the way, Mr. Jarvis, don't give away those signs too fast. I 
think you should put up those signs, and I will help you put 
them up in every national park in this Country. I will even 
help paint them. The public should know what is happening. The 
public should not be shielded from the fact that there are 
consequences, consequences from sequestration that are real.
    And that is the other thing that is so puzzling. Last 
summer, maybe it is because it was before an election, the 
message from my friends on the other side, oh, I was with them 
on platforms, was the earth is going to open and swallow us all 
if sequestration is allowed to happen. Now apparently the 
message is, well, we ought to soft-pedal it, don't be scaring 
people, the consequences are all absorbable, they are not real, 
they won't have real consequences in real people's lives.
    And from everything I can see and everything I hear, I 
think the three of you are attempting to manage and minimize 
the damage. Isn't that what you are asked to do as a manager?
    Mr. Jarvis, in the national parks, we charge entrance fees 
and other fees. If because of furloughs or letting positions 
stay vacant, as you are managing to, might it require some 
parks, I am thinking of one in my district, the Prince William 
County Forest Park, they are looking at perhaps having to close 
for one day a week or maybe even a little bit more. But when 
they do, they also lose revenue, is that not correct?
    Mr. Jarvis. That is correct.
    Mr. Connolly. Have you estimated the potential loss of 
revenue in the National Park Service sort of writ large?
    Mr. Jarvis. We have not estimated that, but we do 
anticipate some loss of revenue.
    Mr. Connolly. Because you talked about bringing in roughly 
$160 million a year in revenue. Some percentage of that is 
going to be lost.
    Mr. Jarvis. Yes, sir.
    Mr. Connolly. And that is over and above the cuts from 
sequestration, is that correct?
    Mr. Jarvis. Yes, sir.
    Mr. Connolly. Mr. Ferriero, my colleague from Ohio, Mr. 
Jordan, was citing you as a paragon of virtue in anticipating 
sequestration and how poor Mr. Jarvis should have followed your 
model. Would you agree with Mr. Jarvis that the missions of the 
two organizations are quite different and therefore, the 
challenges sequestration poses are also quite different?
    Mr. Ferriero. I agree that they are different 
organizations. But let me put it in perspective. I came to 
Washington from the New York Public Library. I was responsible 
for 91 facilities reporting to the mayor and the city council. 
So I have five years of experience in trimming budgets and 
making do with few resources.
    Mr. Connolly. Mr. Chairman, can I just ask one more 
question?
    Chairman Issa. I wasn't going to stop you. You are on a 
roll.
    Mr. Connolly. Thank you, Mr. Chairman.
    Chairman Issa. Although I am informed, and I believe it is 
true, that the revenues go to the general fund. They do not?
    Mr. Connolly. No.
    Chairman Issa. Okay, thank you very much.
    Mr. Connolly. Thank you, Mr. Chairman.
    One final question, because it is sort of hanging out there 
and I am going to ask each of you to answer it. Did you receive 
any instructions from the Administration, OMB, the White House, 
to either soft-pedal the impacts of sequestration or to in fact 
magnify them for some political purpose as you were trying to 
wade through the consequences and how you would manage those 
consequences? Mr. Ferriero?
    Mr. Ferriero. No.
    Mr. Connolly. You are under oath.
    Mr. Ferriero. I am under oath.
    Mr. Connolly. Mr. Jarvis?
    Mr. Jarvis. No, sir.
    Mr. Connolly. You are under oath.
    Mr. Jarvis. No, sir.
    Mr. Connolly. Dr. Clough?
    Mr. Clough. No.
    Mr. Connolly. You are under oath. I thank you very much, 
thanks you, Mr. Chairman.
    Chairman Issa. Thank you. Just for the record, would that 
be true of anybody from any source within government equally?
    Mr. Ferriero. Yes, as far as I know.
    Chairman Issa. Nobody in government, nobody in Department 
of Interior, no deputy assistant secretary of hoopla, nobody?
    Mr. Ferriero. No, sir.
    Mr. Clough. That is correct.
    Mr. Connolly. Mr. Chairman, could I just clarify one thing? 
Ms. Norton at one point in her questioning I think suggested 
that the National Park Service was one-fourteenth of the 
Federal Government's budget. I think the actual statistic is 
one-fourteenth of 1 percent of the Federal Government. Thank 
you, Mr. Chairman.
    Chairman Issa. So noted for the record.
    The gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Thank you, Mr. Chairman, and thank you for 
being here, and for all of your service and for what you do for 
our Country. I can tell you it wasn't that long ago that I was 
walking through the National Archives and standing there with 
my daughters, who just kept repeating, over and over again, it 
is right there. It is right there. The children of today need 
to be able to see and experience what is happening at the 
Smithsonian, at the National Archives and in our national 
parks. It is a significant part of what we do as Americans as 
we pass our heritage on. So this is important for all of us.
    I congratulate all of you for what you are doing on a day 
to day basis, for the children and for our families. I 
encourage you to continue going. I am extremely aware, as 
everyone else is, with our staff and with every staff across 
Federal Government, that this is difficult budget times. We get 
that. But I thank you for what you are doing for the Nation and 
for the future.
    Mr. Ferriero, when did you start planning for sequestration 
and start thinking about its effects and what could occur?
    Mr. Ferriero. We actually started in September of 2011, by 
reducing employee recruitment, retention and relocation 
incentives. Then in November of that year, we instituted the 
hiring freeze. In February 2012, we returned under-utilized 
leases to GSA. In May of 2012, we returned under-utilized motor 
vehicles to GSA.
    In August of 2012 and again in March of 2013, we reduced 
travel budgets by 41 percent below fiscal year 2010 levels. In 
September 2012, we focused available resources on one-time 
investments that would permanently reduce operating costs, like 
building energy efficiency. And in March, 2013, we reduced 
NARA-sponsored conferences and instituted procedures to apply 
increased scrutiny to all conferences.
    Mr. Lankford. That means that you walked in and you have 
been in leadership there how long?
    Mr. Ferriero. Just over three years.
    Mr. Lankford. So you walked in your first year, got the lay 
of the land and could see some areas and then began to 
implement some areas to be more efficient in the process?
    Mr. Ferriero. With the guidance of our new chief financial 
officer, that is right.
    Mr. Lankford. That is a lot of work, to take that on. To 
take on that kind of change, it is a lot of pushback that 
occurs from that. But you planned ahead and because of that, we 
are able to more efficient and continue operations on it.
    Mr. Jarvis, when did you start planning for the effects of 
sequestration?
    Mr. Jarvis. Officially with the memo on June 13th, 2012.
    Mr. Lankford. And then started implementing ideas of what 
to be able to do to actually save money starting when?
    Mr. Jarvis. We instructed in 2012, in June, in that memo 
that every park and program would implement what we call our 
budget cost projection model, in anticipation of a 5 percent 
reduction. And looking at every aspect of their operation, 
travel, fleet, awards, all of those components, and really 
restricting them from doing any type of movement between 
accounts, reduction in the number of seasonals.
    One of the things about park operations s that there is a 
flow into the fall after the end of the fiscal year. Some parks 
actually carry those seasonal operations into the fall. We 
asked them to significantly restrict that, so that they could 
have some discretionary funds going into fiscal year 2013.
    Mr. Lankford. You also mentioned before that each one of 
your parks, you gave them some sort of responsibility to start 
looking for savings, is that correct?
    Mr. Jarvis. That is right.
    Mr. Lankford. When did that occur?
    Mr. Jarvis. We began, as I indicated, in the June 13th, 
2012, and then specifically in January of 2013, we asked each 
park to produce an actual plan for how they would implement the 
sequestration.
    Mr. Lankford. So the parks' first notification of this, 
back to the actual park level, wasn't until sequestration was 
actually imminent, was on top of us. So some of the advance 
planning was in leadership in June and then the parks actually 
got it. What instructions did they get? They were told to start 
thinking about where they could pare back. Was there some 
guidance that was given to them?
    Mr. Jarvis. Yes. Again, actually in the June memo of 2012, 
we asked specifically, each park had to follow their budget 
cost projection models that looked at all of these reductions. 
We didn't come down with a hard enforcement on those 
restrictions until January of 2013.
    Mr. Lankford. So they were given instructions, then, in 
June, to start thinking about it. There was some sort of 
guidance document that was sent down on that.
    Dr. Clough, what about you? When did you start preparing 
for the effects of sequestration?
    Mr. Clough. We started planning for the possibility of 
budget cuts several years ago. We started the program called 
Smithsonian Redesign to become as efficient as we could with 
the present resources that we had. We are still implementing 
that.
    We used the services of McKenzie and Associates to get us 
started. We have now implemented that internally. We have tried 
to implement best practices as quickly as we can through a 
process that we have now for sharing information from our 
units. Anybody can have a best practice. We have employees who 
work in Panama, so we looked across the institution for best 
ideas and for best practice sharing.
    I mentioned the process of digitization. For us that is a 
big money saver, it is an inventory control device, in addition 
to creating access for people. But it is a tremendous tool for 
us to save wear and tear on collections and cut down on the 
number of people that you need to maintain your collections. So 
we have been working on it generally speaking. We have a menu 
of options that we already had in place before sequestration 
ever got on the horizon as to how we would accept different 
types of budget cuts and different options for us.
    Mr. Lankford. So you already had a contingency plan in 
place.
    Mr. Clough. We had those already in place. Then when 
sequester became clear, then we implemented a series of those 
actions that we thought would take care of this year's budget. 
We do have a unique two-year budget process, and it allows us 
to do a little carrying over. So we put in some restrictions 
back in 2012 that would help us in 2013, if sequester appeared.
    Mr. Lankford. Thank you for that. By the way, that is also 
statement, I am a proponent of it, to your budgeting cycle for 
all the agencies, to provide more flexibility on that. That is 
a different topic for a different day. I appreciate that very 
much.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    We now recognize the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Chairman.
    As you know, Chairman, we have some of the most beautiful 
national parks in my congressional district in the State of 
Utah, obviously.
    Chairman Issa. Would the gentleman care to name a few of 
them?
    Mr. Chaffetz. Yes, as a matter of fact, Chairman, I am 
prepared to name of course the Arches and Canyon Lands, among 
two of the five that we so readily tout out west in Utah.
    Mr. Jarvis, we thank you for your service. You have been 
engaged in the Park Service for decades, and we do appreciate 
your service.
    I do want to ask about a couple of the expense items that 
you have to deal with. You have 84 million acres, which is an 
awful lot of land to cover. Can you talk to me a little bit 
about the number of vehicles that you have, maybe the miles 
that you have to travel? Do you have a sense of that right off 
the top of your head? I know it has been a long morning.
    Mr. Jarvis. I think that often people don't understand 
about the National Park Service. With my colleagues here, 
Archives has the Declaration of Independence, but I have 
Independence Hall. The Smithsonian has Old Glory, but I have 
Fort McHenry. And the responsibilities for their maintenance 
and care is different.
    The National Park Service has an inventory of facilities 
second only to the Department of Defense. And most of those are 
historic. We have thousands of miles of road and thousands of 
facilities and 279 million visitors a year. So the challenges 
that we have in terms of keeping those things operational are 
difficult.
    We are also geographically in every State in the Union, 
from the Virgin Islands to the far Pacific. The requirements, 
our vehicles, aircraft, firefighting vehicles, and I don't know 
how many vehicles we have but I can get you those numbers.
    Mr. Chaffetz. Mr. Chairman, I guess the point I am trying 
to make here is that when the price of fuel over the last four 
years has doubled, doubled, there is a dramatic impact, not 
only to the United States Postal Service, which I believe the 
estimate is that for every penny increase in the cost of fuel, 
it costs $9 million more.
    My guess is that there are similar types of effects and 
consequences, when this Nation doesn't have an energy plan and 
that we have such rapidly rising costs of fuel. It literally 
has doubled.
    I am also concerned, Chairman, that last time I looked, and 
maybe for the Department of Interior, not just the Park 
Service, Chairman, that we had close to a billion dollars in 
backlog of ongoing maintenance and other types of programs that 
are out there. Do you have a specific number, that if you 
could, if you would, implement, how much is that? How many 
different systems are there in place or that you are trying to 
have implemented to do this maintenance?
    Mr. Jarvis. The maintenance backlog is $11 billion. And in 
order to maintain those facilities at a base level, I would 
need at least $700 million a year. I get about $300 million.
    Mr. Chaffetz. So my point, Chairman, is this Congress has 
historically allocated money for acquisition of additional 
lands. In fact, if you go back and look from the 1970s, not 
just within the Park Service, but the Federal Government has 
acquired private property and made it public property greater 
than the size of Arizona.
    We can't maintain what we currently have. In fact, it is 
not even close to what we are trying to maintain. I guess there 
are those of us that believe that, let's take care of the 
treasures and the jewels that we have, rather than be on this 
kick to continue to add private property and make it public 
property.
    I would also believe, Chairman, that there is public 
property out there, particularly at the BLM, not so much the 
Park Service, but at the BLM, that serves no public purpose. It 
is not there for mineral rights. In fact, in 1997, the Clinton 
Administration did a study, and I introduced a bill that said, 
this 1 percent of public property that serves no public 
purpose, let's sell it back, let's make it private property. We 
can't even maintain what we have now.
    The Park Service is telling us they have $11 billion that 
they recommend we do in maintenance to make sure that we 
protect these treasures. Next time somebody steps forward and 
says, you know what, we need to acquire more, we need to 
implement the Antiquities Act, we need to do another, we can't 
afford to do what we are doing now. That is one of my concerns, 
that we continue to do this.
    Lastly, Mr. Jarvis, again, my understanding is from fiscal 
year 2003 to fiscal year 2011, the Operational National Park 
System, the ONPS budget, the operation of the National Park 
Service budget, which is roughly, according to my notes, 86.7 
percent of your account, that has increased 11.8 percent from 
2003 to 2012, 7.4 percent faster than inflation. And yet, over 
the last four years, our visitors are still down from the peak 
that happened in 2009 of 285 million visitors.
    So we are asking for a modest 5 percent cut and we bring 
that down, and the number of visitors is down from four years 
ago. I don't think that is an unreasonable place to be. Do you 
care to comment on that, Mr. Jarvis?
    Mr. Jarvis. Visitation depends on a lot of factors, gas 
prices, price of flights to Europe, marketing, a lot of 
factors. Two hundred and seventy-nine million versus 285 
million, it goes up and down. The visitors centers and 
facilities are open for the American public. It changes a 
couple of percentage points.
    We do believe, though, there is an investment we need to 
make in the national parks for the next century, for the next 
communities of the next crop of Americans. We think it is a 
good investment.
    Mr. Chaffetz. Thank you. Again, thank you for your service, 
and again, Chairman, I will be one to advocate that we invest 
in the jewels that we have already set aside. Let's take care 
of those, let's do the maintenance on those rather than 
whetting our appetites to acquire more, more, more. Let's take 
care of what we have here.
    I appreciate your time and service and thank you for 
participating in the hearing. I yield back.
    Chairman Issa. I thank the gentleman.
    Mr. Jarvis, the gentleman from Utah made a pretty important 
point. How much of your acquisition fund would you choose to 
transfer if you had the authority to transfer it to operation? 
Obviously new construction and land acquisition.
    Mr. Jarvis. Well, we basically have a moratorium on new 
construction. Our construction budget is really only going to 
deferred maintenance at this point.
    Chairman Issa. Let me ask a question. If in constant 
dollars your operational account is greater by about 5 percent 
after sequestration than it was in 2008, what happened that 
your costs went up faster than inflation for operation?
    Mr. Jarvis. Well, I would disagree that our budget is up 5 
percent.
    Chairman Issa. It is up 13 percent before sequestration, in 
constant dollars, according to the figures which I have in 
front of me, which you have in front of you.
    Mr. Jarvis. Well, according to my figures, we are down 
about 4 percent since 2010.
    Chairman Issa. You are speaking total budget and I am 
concentrating on operation. Because they are bifurcated in 
sequestration, let's start with operation. Operation is where 
toilet paper comes out of. It is also where grooming the roads, 
the trails, it is also where those personnel that lead the 
trips and so on, all that comes out of it.
    That is up 13 percent in constant dollars adjusted for 
inflation from 2003 through 2008 through today. The base on 
that was 2003. You gave us the figures, we read the figures. We 
would like to know the answer of why, with more money in 
constant dollars for operation than you had on the day 
President George W. Bush left office, you cannot operate with 
less visitors as well as the American people who, for the most 
part are old enough to remember way back in 2008, what it was 
like to go through the parks.
    Mr. Jarvis. The increases that we have received, as I 
remember since that period, have come in specific categories, 
one of which is fire. The National Park Service, along with our 
fellow land management agencies, have responsibility for 
wildland fire. We are receiving a great deal of growth in our 
fire responsibilities across the Country. And those are not 
dollars that can translate into cutting grass or keeping the 
restrooms open.
    Our fixed costs have gone up. In 2009_
    Chairman Issa. Well, let's talk about fixed costs.
    Mr. Jarvis. Yes, sir.
    Chairman Issa. Inflation indexes are designed to pick up 
most fixed costs. What are your fixed costs that went up more 
than my constituents who were watching this on C-SPAN, what is 
it that went up more than inflation for the rest of America, in 
your costs? Was it your labor rate? Did it go up faster than 
inflation?
    Mr. Jarvis. In some places, labor rates go up.
    Chairman Issa. No, no, no. Mr. Jarvis, one of the things 
about this committee is we like the answers to the questions we 
ask. Overall, did your employees earn more than the rate of 
inflation such that in constant dollars they are making more 
today than they made in 2003 or 2008 or previous years? Did 
their real pay go up faster than inflation?
    Mr. Jarvis. I don't know the answer to that question.
    Chairman Issa. Okay. I would appreciate if you would answer 
that one for the record.
    One of the challenges we have on this committee is we are 
well aware that all three of you are dealing with discretionary 
funds. As a result, you are dealing with the tip of the 
iceberg, not the base that is underwater that is going to sink 
the ship of state, to use plenty of metaphors here for a 
moment. One of the challenges I have is, I am talking to you 
about that which we can control, what sequestration affected. I 
am very aware that until this year, when the President proposed 
re-indexing or changing the index rate on Social Security, we 
didn't have a partner even beginning to touch entitlement. We 
now have that. So I am limited here.
    Let me ask some questions from a standpoint of the National 
Archives. You take both paper and electronic data to this day 
from agencies around government, right?
    Mr. Ferriero. That is right.
    Chairman Issa. Isn't it true that if those who are 
delivering you material did a better job of preparing it in the 
least expensive format, both to receive and archive, you would 
be able to have great cost savings and the public would have 
better digital searching capability?
    Mr. Ferriero. And that is the thrust of the Government 
Records Directive, yes, that is true.
    Chairman Issa. So touting a piece of legislation that I 
believe in that did not pass out of the Senate, which is not an 
uncommon thing for all those of us in the House to do, the Data 
Act, which could also be called the Structured Data Act, that 
would create structured data so that all reports, all data 
coming in from the government would ultimately be interoperable 
and searchable, how would that affect your ability to both 
maintain Archives and provide meaningful information, both on 
the Presidential Records Act side and obviously for all 
government information, including from those of us in Congress?
    Mr. Ferriero. In theory, it sounds terrific. It is the 
details, how it would actually be implemented.
    Chairman Issa. Let's go through that for a moment. Because 
no one else is seeking time right now. The gentleman will get 
his time to talk more about those five parks in just a moment.
    If we implemented the way you would like it implemented, 
what does it do both for cost and availability to the public of 
the kinds of information they believe or that potentially, 
rightfully or wrongfully, they want?
    Mr. Ferriero. I think any time in an IT environment where 
you establish standards across the government, it is much more 
efficient and effective. And it improves potential access at 
the other end.
    Chairman Issa. Thank you.
    Dr. Clough, in your case, except for not charging for 
admission when other museums around the Country do, except for 
not charging for the Washington Zoo while the San Diego Zoo has 
to, except for having a hard time asking people to give you 
money because they assume we will give you the money you need, 
is there anything we can do to help you?
    [Laughter.]
    Mr. Clough. I think the comment that was made by David 
applies to us as well. Collections care is a critical item for 
us. I can get donors to support new construction in many cases. 
I can get donors to support new and exciting initiatives. But 
it is much tougher to get the basics. And collections care is 
an essential one for us.
    Sort of in a similar category is maintenance. I am a civil 
engineer by training. You don't want to build up a deferred 
maintenance backlog, if you can avoid it. And the longer it 
goes on the worse it gets. So I think those are sort of the 
basic things that government can help us do that we really 
can't do ourselves.
    Chairman Issa. Let me ask you a tough question. Roughly 97, 
98 percent of the things you have are not on display at any 
given time, isn't that true?
    Mr. Clough. Yes, that is correct, in the museums. Now, we 
do have a major loan program. About a million of our objects 
are shared with our affiliate museums and others around the 
Country and digitally. Now we have about a million of our 
objects up with images and about 8 million with records. So we 
are sharing more and more of them digitally.
    Chairman Issa. I want to talk about sharing. Because as a 
former businessman, I know that when you share, you don't bear 
the cost of transporting the item back and forth. But what do 
you see as the potential revenue of some of that 97 percent 
that is sitting in storage that we are paying to store being 
made available through other museums, but also the potential 
for it to equal or exceed its total cost of preserving?
    Mr. Clough. Well, that is a little bit of a tough thing. A 
lot of our collections are scientific collections, 127 million 
of our 137 are what we would call scientific.
    Chairman Issa. And I do not have the time to look at every 
insect that you have preserved, but I understand it is 
unmatchable anywhere in the world.
    Mr. Clough. It is. And I haven't counted them all myself. 
But I would say it is important to realize that the collections 
are used for research by a number of government agencies. And 
to the Park Service's credit, we signed an agreement recently 
to share collections expertise and to do everything we can to 
prevent overlap and work together on that. We will do more of 
that in the future.
    But the Department of Defense, the Department of 
Agriculture, actively uses our collections for entomological 
reasons, NIH uses them for spread of disease from animals and 
insects and so forth.
    Chairman Issa. Do they come to you because you are free, 
rather than somebody else who might charge them big bucks, 
because they are the government?
    Mr. Clough. Well, that is because they are a Federal agency 
and we collaborate with our fellow agencies. Now, anyone who 
wants to use the collection for research, if it is a legitimate 
reason, they have access to the collections.
    Chairman Issa. Do you see the potential for some revenue 
from the treasure trove you have? Obviously the inter-
government one, we could have a separate discussion, but non-
inter-government.
    Mr. Clough. I think if there is a potential, it is in the 
digital realm. We put value added against the collections as 
opposed to just making them available in sort of a generic 
sense. But if we package them in certain ways, those things are 
marketable. And we are looking at those options where we could 
actually market packages that would make sense in the normal 
run of business to do that.
    Chairman Issa. Last question. Mr. Jarvis, do you need any 
authority to raise more revenue that you get to keep under the 
1997, or was it 1994, Act? The 1997 Act.
    Mr. Jarvis. Well, the fee authorization legislation is up 
for reauthorization in 2014. We do think that there are some 
appropriate changes to that that would give us more authority, 
change to some of the structures and let's say liberalize how 
the fees could be used. We were not able to use the funding to 
cover these costs, because we did not have transfer authority.
    So there are some fixes. I think if the sequestration 
continues, we are going to need VSIF and VERA authority, early 
buyout and early out authorities to deal with it in the next 
fiscal year.
    Chairman Issa. Great. I am going to recognize the gentleman 
from Utah. He is going to come up and sit here. Mr. Jarvis, I 
was tough on you on the way in. Clearly, the ranking member was 
also tough. Hopefully, the people at Interior recognize that 
you were just the messenger and they will deliver the documents 
we both asked for.
    I now recognize the gentleman from Utah.
    Mr. Chaffetz. [Presiding] Thank you.
    Just in conclusion, Mr. Jarvis, I think you were going to 
talk about acquisitions and the Chairman got going in a 
different direction. Can we talk about acquisitions?
    Then the second part of my question is, how much money did 
you get when the stimulus, in general, what did you use it for?
    Mr. Jarvis. In the Recovery Act?
    Mr. Chaffetz. Yes.
    Mr. Jarvis. We received about $900 million in the Recovery 
Act. We used it specifically for our maintenance backlog 
projects. Everything from wastewater treatment plants, to water 
treatment, to roads, to work on historic buildings. And we can 
provide you a complete list.
    Mr. Chaffetz. As a follow-up, so we can conclude this. As a 
follow-up, if somebody could provide me and this committee a 
list of what you did do with the stimulus money, that would be 
appreciated.
    In terms of acquisitions, what have you done over the last 
several years, where are you going? What does that look right 
now?
    Mr. Jarvis. Our land acquisition program, which is derived 
from the Land Water Conservation Fund, outer continental shelf 
oil leasing, has been sort of steady at about $53 million. We 
have a Federal side and a State side of the Land Water 
Conservation, we grant to all of the States to basically 
purchase lands for State parks, for urban parks, for access to 
rivers and recreational sites.
    The Federal side, we are restricted to buying only willing 
seller in-holdings within national parks, within the boundaries 
of existing national parks. That is what that funding goes to.
    Mr. Chaffetz. As we conclude here, again my concern is that 
we continue to add to the amount of lands that we continue to 
hold as opposed to, and my criticism is broader than the Park 
Service. I think it is much more directed at BLM and others 
within the Department of Interior. We seem to have this 
insatiable appetite to consume and want more instead of 
recognizing that private ownership in many instances is the 
preferable way to do it.
    We thank you all for your service, your participation here. 
I know it is not always the best day to come and have to 
testify before Congress. But we do appreciate it and thank you 
for your service. This committee stands adjourned.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 80900.018
    
    [GRAPHIC] [TIFF OMITTED] 80900.019
    
    [GRAPHIC] [TIFF OMITTED] 80900.020
    
    [GRAPHIC] [TIFF OMITTED] 80900.021
    
    [GRAPHIC] [TIFF OMITTED] 80900.022
    
    [GRAPHIC] [TIFF OMITTED] 80900.023
    
    [GRAPHIC] [TIFF OMITTED] 80900.024
    
    [GRAPHIC] [TIFF OMITTED] 80900.025
    
    [GRAPHIC] [TIFF OMITTED] 80900.026
    
    [GRAPHIC] [TIFF OMITTED] 80900.027
    
    [GRAPHIC] [TIFF OMITTED] 80900.028
    
    [GRAPHIC] [TIFF OMITTED] 80900.029
    
    [GRAPHIC] [TIFF OMITTED] 80900.030
    
    [GRAPHIC] [TIFF OMITTED] 80900.031
    
    [GRAPHIC] [TIFF OMITTED] 80900.032
    
    [GRAPHIC] [TIFF OMITTED] 80900.033
    
    [GRAPHIC] [TIFF OMITTED] 80900.034
    
    [GRAPHIC] [TIFF OMITTED] 80900.035
    
    [GRAPHIC] [TIFF OMITTED] 80900.036
    
    [GRAPHIC] [TIFF OMITTED] 80900.037
    
    [GRAPHIC] [TIFF OMITTED] 80900.038
    
    [GRAPHIC] [TIFF OMITTED] 80900.039
    
    [GRAPHIC] [TIFF OMITTED] 80900.040
    
    [GRAPHIC] [TIFF OMITTED] 80900.041
    
    [GRAPHIC] [TIFF OMITTED] 80900.042
    
    [GRAPHIC] [TIFF OMITTED] 80900.043
    
    [GRAPHIC] [TIFF OMITTED] 80900.044
    
    [GRAPHIC] [TIFF OMITTED] 80900.045
    
    [GRAPHIC] [TIFF OMITTED] 80900.046
    
    [GRAPHIC] [TIFF OMITTED] 80900.047
    
    [GRAPHIC] [TIFF OMITTED] 80900.048
    
    [GRAPHIC] [TIFF OMITTED] 80900.049
    
    [GRAPHIC] [TIFF OMITTED] 80900.050
    
    [GRAPHIC] [TIFF OMITTED] 80900.051
    
    [GRAPHIC] [TIFF OMITTED] 80900.052
    
    [GRAPHIC] [TIFF OMITTED] 80900.053
    
    [GRAPHIC] [TIFF OMITTED] 80900.054
    
                                 <all>

</pre></body></html>
